<html>
<title> - [H.A.S.C. No. 112-109]BUDGET REQUESTS FROM U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-109]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          BUDGET REQUESTS FROM

                       U.S. SOUTHERN COMMAND AND

                         U.S. NORTHERN COMMAND

                               __________

                              HEARING HELD

                             MARCH 6, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                      U.S. GOVERNMENT PRINTING OFFICE

  73-435                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6205120d22011711160a070e124c010d0f4c">[email&#160;protected]</a>  



                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Lynn Williams, Professional Staff Member
               Timothy McClees, Professional Staff Member
                  Catherine Sendak, Research Assistant
                    Lauren Hauhn, Research Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 6, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Requests from U.S. Southern Command and 
  U.S. Northern Command..........................................     1

Appendix:

Tuesday, March 6, 2012...........................................    27
                              ----------                              

                         TUESDAY, MARCH 6, 2012
 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
            U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Fraser, Gen Douglas M., USAF, Commander, U.S. Southern Command...     3
Jacoby, GEN Charles H., Jr., USA, Commander, U.S. Northern 
  Command and North American Aerospace Defense Command...........     5

                                APPENDIX

Prepared Statements:

    Fraser, Gen Douglas M........................................    34
    Jacoby, GEN Charles H., Jr...................................    69
    McKeon, Hon. Howard P. ``Buck''..............................    31
    Smith, Hon. Adam.............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   100
    Mr. Conaway..................................................   103
    Mr. Franks...................................................   103
    Mr. Hunter...................................................   104
    Mr. Schilling................................................   104
    Mr. Scott....................................................   106
    Mr. Turner...................................................    99









 FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
            U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 6, 2012.
    The committee met, pursuant to call, at 10:01 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning. The committee meets today to receive 
testimony on the status and posture of both our Southern 
Command and Northern Command. I am pleased to welcome General 
Douglas Fraser, Commander of the U.S. Southern Command, and 
General Charles Jacoby, Commander of U.S. Northern Command and 
North American Aerospace Defense Command.
    General Fraser, I understand this will be your last 
appearance before the committee in this capacity. I see your 
wife is smiling very, very cheerful there; great support that 
she has provided for you all these many years. After 37 years 
in the Air Force, we thank you for your service to your country 
and wish you all the best in your retirement.
    Gentlemen, thank you for your long and distinguished 
service in your uniforms, for the service to your Nation, and 
for joining us here today.
    Looking at SOUTHCOM [Southern Command], General Fraser, in 
my mind, the illicit trafficking threat is one of the greatest 
challenges we face in your geographic area of responsibility. 
In your statement, you highlight the threat of transnational 
criminal organizations and their role in SOUTHCOM's area of 
responsibility.
    Growing crime and violence in Central America, as well as 
the continuing growth of Chinese, Russian, and Iranian 
influence in the region bring with them opportunities and 
challenges. China, Russia and Iran have been very active in 
Latin America through arms sales, personnel exchanges, 
investments, and trade deals.
    In addition, the activities of Hezbollah in the region are 
very troubling. It is also, I should add, one that requires 
close collaboration and coordination with your colleague at the 
table from NORTHCOM [Northern Command], as well as your 
interagency partners. The committee would benefit from your 
assessment of trends in the activities and influence of these 
actors in the Western Hemisphere.
    Regarding NORTHCOM, drug-related violence is a threat 
directly impacting the U.S. homeland on a daily basis, and we 
need to treat it as a national security imperative. I laud the 
heroic efforts of Mexican security service personnel and public 
officials who, make no mistake, are risking their lives and the 
lives of their families in a war against these brutal criminal 
enterprises. We need to support these heroes in their fight, 
while fully respecting the sovereignty of Mexico.
    I look forward to hearing your assessment of the progress 
being made by Mexican authorities in the NORTHCOM; and what 
NORTHCOM is doing to support them and build their capacity and 
capabilities.
    Additionally, the committee is concerned about the 
sufficiency of the fiscal year 2013 budget for the ground-based 
midcourse defense system which NORTHCOM relies on to protect 
the U.S. from long-range ballistic missiles.
    Homeland defense is supposed to be the first priority for 
missile defense, but this budget request does not reflect that 
prioritization. We must be careful not to compromise homeland 
missile defense for the sake of theater missile defense or 
budget shortfalls.
    In this continually changing budget environment and with 
the new defense strategy laid out by the President earlier this 
year, evaluation of each combatant command and their 
interpretation of missions and goals within the Department 
becomes vital. With the looming threat of sequestration, we 
must also understand the consequences of such severe cuts on 
the effectiveness of your commands.
    Gentlemen, thank you again for appearing before us here 
today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 31.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I want to join your 
remarks in thanking both General Fraser and General Jacoby for 
their leadership and service to our country.
    And General Fraser, since this will be your last time 
before our committee in all likelihood, thank you in particular 
for your service and I hope you and your wife enjoy your 
retirement. You served your country very well.
    And General Jacoby, it is good to see you again. Your 
leadership out at 1st Corps in Fort Lewis was very much 
appreciated; an outstanding job out there in the 9th District 
of the State of Washington. So it is good to see you in this 
new position as well. Thank you for all of your service to our 
country.
    Securing our hemisphere is absolutely critical to our 
national security. Obviously, there have been many challenges 
and threats in other parts of the world, but we all must, you 
know, stay focused on the fact that securing what is closest to 
home will continue to be a very, very important part of that 
job. And in NORTHCOM in particular, protecting the homeland is 
job one, but there are many challenges and threats to that.
    I agree with the chairman on Mexico being, you know, the 
top one. The challenges they face down there from the drug 
cartels are significant, and clearly bleed over to the other 
side of the border and cause challenges.
    I want to thank General Jacoby and the entire NORTHCOM 
command for their work in building a relationship with Mexico 
to try to find ways to help them in any way we can to, you 
know, get back control of their country, quite simply. It is a 
very devastating situation right now. We need to work with them 
to try to bring greater security to that region.
    I am also very focused on the cyber-security challenge. 
Everyone throughout DOD [Department of Defense] has to deal 
with that, but NORTHCOM has the, you know, particular concern 
again in protecting the homeland. It is a murky and difficult 
area. Cyber touches absolutely everything and we are all aware 
of the size of the threat. And so any thoughts that either of 
you gentlemen have on how best to confront that threat, how 
best to organize the Department of Defense to be in a position 
to do that, and what authorities you might need that you don't 
currently have, we would be interested in hearing.
    And then SOUTHCOM, again as the chairman mentioned, the 
major threat obviously is narco-trafficking. I appreciate your 
leadership, General Fraser, in trying to confront that. And it 
becomes all the more critical that we find as many partners and 
allies as we can in the region.
    I think that is an important part of SOUTHCOM's work--is to 
build those relationships so that we can help confront whatever 
threats that emerge from there. And again, I agree with the 
chairman in his assessment both of what those threats are and 
how important they are to our national security.
    I thank both you gentlemen for being here before us today. 
I look forward to your testimony and your answers to our 
questions.
    And with that, I yield back. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 33.]
    The Chairman. Thank you.
    General Fraser.

   STATEMENT OF GEN DOUGLAS M. FRASER, USAF, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    General Fraser. Mr. Chairman, Ranking Member Smith, 
distinguished Members of the committee, thank you for the 
opportunity to appear before you today to represent the 
outstanding men and women of the United States Southern 
Command.
    As you mentioned, I am joined today by my wife Rena. She is 
a strong advocate for our military families and their service 
to our great Nation, and she has helped build enduring 
relationships with our partners across Latin America.
    I am also extremely pleased this morning to join my good 
friend and counterpart, General Chuck Jacoby. He and I served 
with one another in a previous assignment and we work closely 
every day to coordinate our respective activities across the 
Western Hemisphere. Through routine cooperation and 
collaboration, relations between our staffs grow closer every 
day.
    With the continued support of Congress and the Members of 
this committee, United States Southern Command will continue 
defending the southern approaches to the United States, 
enhancing regional security, and building enduring 
partnerships. Mr. Chairman, I have prepared a full statement 
and respectfully request that it be entered into the record.
    The Chairman. Without objection, so ordered.
    General Fraser. I want to briefly discuss two topics with 
you this morning. One of them you mentioned, countering 
transnational organized crime. The other is building enduring 
partnerships.
    As I discussed with you in previous testimony, United 
States Southern Command is increasingly focused on a concern 
that permeates this region; and that is transnational organized 
crime. Like Secretary Panetta and Secretary Clinton, I am 
concerned about the impact of transnational organized crime on 
citizen safety in Central America, especially in countries like 
Guatemala, El Salvador, and Honduras, which are facing 
unprecedented levels of violence.
    Transnational criminal networks threaten to overwhelm the 
law enforcement capacities of some of these Central American 
countries. And in an effort to reduce violence and halt the 
spread of criminal groups, some countries have deployed their 
militaries in support of law-enforcement organizations.
    To address this growing threat, last year the President 
implemented a strategy to combat transnational organized crime. 
In support of this strategy, United States Southern Command 
developed and implemented Operation Martillo; a focused plan to 
disrupt illicit maritime traffic through the departure zones of 
South America and the arrival zones into Central America.
    In Central America, we have helped train our partner 
militaries to effectively support their law enforcement 
partners.
    Southern Command also supports U.S. interagency and 
international efforts to provide network analysis of 
transnational criminal organizations and their operations.
    In the Caribbean, under the Caribbean Basin Security 
Initiative, we are developing a regional partner interdiction 
plan to enhance the capabilities of our Caribbean partners. And 
in South America, we will sustain our support to Colombia and 
Peru as they fight narco-terrorist groups in their countries.
    Success in combating transnational organized crime is 
enhanced by fostering enduring partnerships with international 
and interagency organizations. That is my second topic this 
morning.
    United States Southern Command is working to build such 
partnerships by enhancing cooperation and promoting 
information-sharing with regional and interagency 
organizations. In addition, we are strengthening our 
partnerships through traditional military engagement programs 
and activities with our counterparts across Latin America.
    We work with them to strengthen humanitarian assistance and 
disaster relief capacities, and we remain ready to respond 
should our assistance be requested.
    Last year, we conducted hundreds of training and 
educational events, 12 major multinational exercises with 
partner nations in the hemisphere, and 56 medical-readiness 
training exercises in 13 different countries.
    The sustained engagement has yielded some important 
benefits. Last year, for the first time, Colombia assumed the 
land component commander role during PANAMAX [Panama Canal 
Exercise], our annual multinational exercise focused on 
supporting the defense of the Panama Canal; next year, Brazil 
will assume the maritime component role as well, an important 
step in strengthening and expanding partnerships in the 
hemisphere.
    In closing, Mr. Chairman, I would like to thank Congress 
for your years of support to Colombia, and I ask for your 
continued support to help achieve a lasting peace.
    And finally I want to thank you, and for your unwavering 
support to the men and women of United States Southern Command 
who diligently work every day to ensure our security. I look 
forward to our discussion. Thank you, Mr. Chairman.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 34.]
    The Chairman. Thank you.
    General Jacoby.

 STATEMENT OF GEN CHARLES H. JACOBY, JR., USA, COMMANDER, U.S. 
 NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    General Jacoby. Chairman McKeon, Ranking Member Smith, 
Members of the committee, thank you for the opportunity to 
appear before you this morning. It is an honor to be here.
    It is a pleasure to be here with my fellow combatant 
commander and friend, General Doug Fraser and his wife Rena.
    Doug, it is a pleasure to be with you.
    On behalf of the men and women of U.S. Northern Command and 
North American Aerospace Defense Command, I appreciate this 
committee's continuing support of our missions of homeland 
defense, including ballistic missile defense; defense support 
of civil authorities, for which the highlight last year was the 
team response to Hurricane Irene; and security cooperation, 
including our expanding cooperation with the Mexican military 
as they tackle brutal transnational criminal organizations.
    In the case of NORAD [North American Aerospace Defense 
Command], our assigned missions for the United States and 
Canada include aerospace warning and control through our safe 
and successful Operation Noble Eagle; and maritime warning, 
where we continue to grow capability through improved 
interagency and international information-sharing.
    In addition to cooperative defense with our ally Canada, we 
are steadily improving our security cooperation with our good 
friends in Mexico and the Bahamas at a pace determined by 
mutual agreement and with constant respect for national 
sovereignty.
    Our vision is that with our trusted partners we will defend 
North America by outpacing all threats, maintaining faith with 
our citizens, and supporting them in their times of greatest 
need.
    We view our missions as a sacred trust by our governments 
and our citizens. We appreciate that the American people and 
their elected representatives in Congress and the White House 
rightly have high expectations of our ability to defend them 
here at home.
    And consistent with the necessity for collaboration with 
many other organizations in a wide variety of challenging 
situations that can threaten the citizens of our great Nation, 
my priorities are to expand and strengthen our trusted 
partnerships; to advance and sustain the binational command 
NORAD; to gain and maintain all domain situational awareness, 
including air, space, cyberspace, land, maritime, and the 
unique and fast-changing domain known as the Arctic; to 
advocate and develop capabilities in our core mission areas to 
outpace all threat; and to take care of our people. They are 
our foundation.
    And I am tremendously proud of the committed, selfless men 
and women--military and civilian, Americans and Canadians--that 
serve our command.
    And when appropriate, in accordance with the Stafford Act, 
the national response framework, and other laws and guidance, 
such as on the request of a governor and upon direction of the 
President or Secretary of Defense, U.S. NORTHCOM pulls together 
unique capabilities and capacities of the Department of Defense 
to multiply the impact of a primary federal agency, such as 
FEMA [Federal Emergency Management Agency], in protecting our 
citizens.
    Thanks to Congress and the President, the 2012 National 
Defense Authorization Act put into law initiatives supported by 
the Council of Governors and the Secretary of Defense 
concerning dual-status commanders and the activation of 
reserves in domestic-disaster response.
    I appreciate this committee's support for these two 
important measures, which will surely help save American lives.
    It was my privilege to serve in Afghanistan and Iraq with 
many superb members of the National Guard and Reserves. I 
believe that in the crucible of over 10 years of continuous 
conflict, with the support of Congress, we have developed the 
finest total force that I have ever seen, and NORAD and 
NORTHCOM depend on that total force every day.
    This past year has been busy. We have synchronized our 
activities with many partners and we have done our part to 
realize efficiencies that we have worked through the budget 
process; for fiscal year 2012 trimming our workforce by 141 
full-time equivalents, and for fiscal year 2013 reducing our 
O&M [Operations and Maintenance] by about 6 percent.
    With the resources and authorities at hand, and maintaining 
our vigilance, we will be able to continue to defend and 
support the American people.
    Thank you for this opportunity to appear today, and I look 
forward to the discussion.
    [The prepared statement of General Jacoby can be found in 
the Appendix on page 69.]
    The Chairman. Thank you very much.
    General Fraser, in your statement you point out the 
importance and emergence of the transnational criminal 
organizations. Can you expound on that a little bit about what 
their influence is in the region and what we are doing to 
combat them?
    General Fraser. Thank you for that question, Mr. Chairman.
    We see that it is a network that extends from the 
production areas of the northern part of South America, through 
the transit zone in Central America and Mexico, and into the 
demand region in the United States and other parts of the 
region.
    We are seeing that now some of that supply of cocaine--and 
I will talk specifically cocaine--is moving through South 
America, as well as Central America. But the violence continues 
to increase in Central America, and that is where and why we 
are focusing there.
    Last year, the U.N. [United Nations] estimated or said that 
Honduras has the highest violence of any country in the world. 
And we see that as a direct influence of transnational 
organized crime, but there are gangs and there are other 
factors that also enter into that.
    We are focused on our maritime mission, which is to support 
the detection and monitoring of the traffic through the 
maritime environments of the Caribbean and the Pacific. We 
started Operation Martillo on the 15th of January as an 
effort--and a focused effort--to try and disrupt that traffic 
and see if we can influence how it is impacting in Central 
America.
    We are also working with our interagency partners, as well 
as our partner militaries, in Central America to build their 
capacity to support law enforcement as the militaries in 
Guatemala, El Salvador, and Honduras have been asked by their 
governments to come in and support law enforcement.
    We are working both maritime and land. We haven't taken our 
eye off the Caribbean, and we are still focused with our 
partners in South America as well, as well as working with 
Northern Command as that traffic transits through Central 
America into Mexico.
    The Chairman. Big job.
    General Jacoby, with the release of the 2013 budget your 
command announced that it will be eliminating the 24-hour alert 
requirement at 2 of the 18 existing aerospace control alert 
sites across the Nation. At these sites, North American 
Aerospace Defense Command has armed aircraft on 24-hour alert 
to conduct air operations to deter, detect, and if necessary 
defeat hostile air attacks aimed at the homeland.
    How did the command arrive at this decision to eliminate 
these requirements at Duluth, Minnesota, and Langley, Virginia? 
And how can you assure the committee that the U.S. is not 
assuming any additional risk to our national security with 
these reductions?
    General Jacoby. Thank you, Mr. Chairman.
    That is correct, and the reduction of 24/7 standing 
capability at those sites was a very difficult decision.
    The Secretary of Defense and the President asked all the 
COCOMs [combatant commands] to turn over every rock and look at 
their mission sets and see where we could gain some 
efficiencies and make some progress in matching ends, ways, 
means and risk, in that dynamic relationship which is called 
strategy.
    And so in good faith every COCOM did turn over every rocks. 
And the NORTHCOM and the NORAD mission sets' ACA [Aerospace 
Control Alert] basings were looked at very vigorously. Really 
as a result of the GAO [Government Accountability Office] 
reports of 2009 and 2011, there was a lot of work done about 
each of the bases.
    And so we dove into it as a team, OSD [Office of the 
Secretary of Defense], NORAD, NORAD/NORTHCOM--and looked for 
ways to trim and gain efficiencies.
    In my view, reducing by two bases after all the analysis 
and discussion that took place, I believe we can mitigate any 
additional risk that we assume by reducing the 24/7 presence.
    I want to be clear that this does not mean closing down 
bases. It did not mean removing fighter squadrons. It just 
meant simply we would not sit alert at those two bases 24/7.
    I believe that I have the resources and authorities to 
respond to any threats or any additional risk that can be 
accrued by closing down those 24/7 sites.
    The Chairman. It does mean, though, that we are taking on 
additional risk.
    General Jacoby. Chairman, that is correct.
    After careful analysis and working with the United States 
Air Force, the Guard, and working with OSD, I believe I have 
the authorities and capabilities to mitigate that risk.
    For instance, I have the authority to move to another level 
of alert and go from 14 bases with 28 fighters to 23 bases with 
46 fighters in just a matter of 48 hours.
    I also have the authority to restore a CAP to restore a 
presence over each one of those bases in less than an hour.
    So I think we have the ability to do it. These were 
difficult decisions. I agree with the ranking member, the 
homeland is job one. But I think in this case we did due 
diligence and made good choices.
    The Chairman. I think you did the best with what you have. 
I just think it is important that the country understand that 
with these cuts we are assuming additional risk around the 
world. This is just the one in your command.
    But we don't know, and you don't know, until you look back, 
if you are able to withstand--if some of these additional risks 
develop into a tragedy, we don't know. Just like if you go back 
the last 5 or 10 years where we haven't been attacked, we could 
have cut down all 18 bases because we, you know, we didn't have 
that problem.
    But you don't know what risks are until after you have--I 
mean, if the risk is real until somebody exploits it.
    But thank you for what you have done and how you have made 
the best of this situation.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Yes, you certainly have a difficult task under the best of 
circumstances. And I think the thing about risk is there is no 
way to eliminate it. We could spend another trillion dollars in 
the defense budget and I am sure a whole lot of people would 
pour over it and say, ``Well, there is risk here. How come you 
didn't eliminate that?'' It is a question of balancing risk.
    And as I argued before the committee, resources are always 
part of the equation in figuring out what your strategy is. We 
don't have infinite resources. We have to live within finite 
means and try to figure out how to make it work best.
    Along those lines, the question I want to ask both of you 
is with the strategic review and the change in approach, tell 
us a little bit how that change in strategy has changed your 
particular commands; what you are doing differently.
    And you can balance it out. Part of it is, as the chairman 
has alluded to, you know, what risks are you taking on, but 
then also perhaps, how did you refigure how you spend things in 
a way that was more efficient and more effective in terms of 
meeting your strategic goals? And did those goals themselves 
change somewhat during the course of this process?
    And I will yield to--I guess General Fraser, you go first, 
and then General Jacoby.
    General Fraser. Thank you, Congressman Smith.
    From my perspective, we took some very deliberate 
reductions, our command reduced by about 10 percent. And we 
took those in areas that I think we could use to mitigate the 
risk. A lot of it was--some of it is in travel. Some of it was 
in the number of people we sent to conferences.
    We have adjusted the way we approach exercises. And some of 
that was a fact of life in working with our partners. They were 
not able to sustain the rate at which we were exercising with 
their vessels and their aircraft, and we needed to make some 
adjustments there, as well.
    We are working much more--and continuing to work much more 
deliberately--with our interagency and international partners. 
And I see growing partnership throughout, especially Central 
America, but as well as the Caribbean, in our ability to work 
with one another to share a common understanding of that 
strategy and build capacity.
    Mr. Smith. And can you on that be specific and say what--I 
mean, what mission is it that you are better able to serve with 
those greater partnerships and that interagency----
    General Fraser. It is the area that we are focused on the 
most; a nontraditional area which is that countering 
transnational organized crime. We are playing our role in that 
effort. We adjusted our strategy to put a more permanent 
presence along those departure and arrival zones within Central 
America, the Caribbean and the Eastern Pacific.
    We are working deliberately with each of our interagency 
partners with the United States as well as our partners within 
Central America to build a common approach to this effort.
    It is a long way to go but we are adjusting our strategy to 
the reality that none of us have enough resources to compete 
with the level of these transnational organized crime.
    Last year, the estimate is, worldwide, that their profit 
was $88 billion. Within Central America it is $18 billion. 
These countries don't have that capacity, and so it really is 
interagency international support to address that problem from 
our perspective.
    Mr. Smith. Thank you.
    General Jacoby.
    General Jacoby. Thank you.
    I believe that as we looked across the cuts to NORAD and 
U.S. Northern Command, the mission of NORAD and Northern 
Command and the job of defending the homeland was treated 
appropriately for the gravity of that responsibility.
    And so essentially we took a 6 percent cut in our O&M 
funding as almost all the COCOMs did. We could absorb that. It 
is operating overhead. It is belt-tightening.
    We lost a small amount in our chemical, biological, 
radiological and nuclear-response capability. That was two CSTs 
[Civil Support Teams], the State teams that were not mandated 
in Congress. We kept teams in every State. We just reduced two 
that were additional ones that States had fielded. And that was 
on top of the already talked about reduction in 24/7 operations 
at two sites for our alert fighters.
    Those were really the majority of the pressure, budget 
pressure that we felt. Across the board, I think that the 
homeland received the attention that it deserved; and in order 
to meet the high expectations of this committee and the people 
of the United States for defending the homeland.
    I will say that we are entering into a period here--and we 
are well in that period--where there is such an intimate 
relationship between the home game and the away game that I 
spend much of my time worrying about the same threats--the same 
set of threats that Jim Mattis does; the same set of threats 
that Bob Willard has done. And so those are reflected back in 
the homeland.
    And so their capacities and capabilities are just as 
important to me as the ones that are extant in the homeland.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you both very much for your service. We 
are in your debt.
    General Jacoby, North Korea has nuclear weapons. We believe 
that Iran may be developing them. We keep watching both of 
those countries to see when they will have a ballistic missile 
which could reach us.
    Sir, I do not believe that this is the nature of the 
threat. These countries may be evil; they are not idiots. They 
know that we have space assets that if they launch, we would 
detect that launch. And if the weapon landed on our soil and 
detonated, they know that they would be quite immediately 
vaporized.
    I do not believe that they are collectively suicidal, so I 
do not believe that we have a threat of an intercontinental 
ballistic missile launched from either North Korea or Iran.
    I think the real threat, sir, is for a medium-range missile 
launched from a ship off our shore. This needn't even be a 
state actor. A nonstate actor with a tramp steamer, a Scud 
launcher--which they can buy, I believe, on the open market for 
about $100,000--and any crude nuclear weapon detonated above 
the atmosphere over the Mid-Atlantic.
    And, sir, they could miss by 100 miles and it really 
wouldn't make any difference, would it? And this would create 
Katrina at least 10 times over with the EMP [electromagnetic 
pulse] effect. This would be close to a mortal wound. And if 
they then sank the ship, there may be little consequence of 
retaliation because there could be no fingerprints.
    What assets do we have, sir, to protect against this kind 
of attack and to what extent are they in place along our shore?
    General Jacoby. Thank you, sir. I appreciate the question, 
and I agree with you on the importance of considering that type 
of threat to the country. And you have helped us think our way 
through many of the steps that we have taken in the recent 
past.
    First of all, it really divides itself into two questions, 
the EMP question itself and then specifically the scenario you 
painted as a maritime threat. And we have a responsibility from 
NORAD for our maritime assessment and warning. So we have got, 
really, two aspects of that.
    First of all, in a maritime issue, we have made big strides 
over the last 5 years in bringing together all of the 
stakeholders in maritime domain awareness. We are increasing 
our capability to understand, to see and advise against 
maritime threats in a much greater capacity and capability than 
we have in the past.
    Still have work to do; we continue to push the envelope. We 
have many tests ongoing that we conduct both with Canada and 
with all of our partner agencies in the United States. But we 
are getting closer to the kind of maritime domain awareness 
that the scenario you painted requires us to have.
    On EMP itself, it is a challenge. And it could result in 
very tough effects for any advanced country that relies on its 
electronic grid and that type of energy support system.
    So for that command itself, as you know, my alternate 
command center in Cheyenne Mountain has EMP protective 
capability as well as our headquarters at Peterson Air Force 
Base. So in terms of the command-and-control nodes required to 
defend this country in times of crisis--we are postured to deal 
with, at least partially, the EMP threat.
    Now, we need to understand more about that. And one of the 
things we have done--and you have participated in this--is 
conduct a series of table-top exercises called Secure Grid. We 
did Secure Grid 11 last year, and it dealt primarily with the 
cyber threat and the consequences and interdependencies that 
create vulnerabilities of a cyber-attack.
    And next year, NORTHCOM will host the next TTX [table-top 
exercise] on Secure Grid and it will deal specifically with the 
challenges and the requirements that are needed as a result of 
an EMP attack.
    So we are paying attention to this. In the final analysis, 
our best defense is intelligence, interdiction and deterrence 
so that we prevent such a strike from occurring.
    Mr. Bartlett. Thank you.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thanks to both of you generals for joining us today.
    General, congratulations on your years of service and the 
prospects as you look forward to your new life. And your wife, 
I am sure--you know, your partner who has supported you--is 
also looking forward to a new life, as well. And I am hopeful 
that everything will work out real well for both of you.
    Thank you for your service.
    General Jacoby, for what purpose do we currently operate 
drones in U.S. airspace?
    General Jacoby. Thank you for the question.
    There are tremendous opportunities and utility in using 
droned or unmanned aerial systems not just in theater but also 
in the homeland. In the past it has been pretty difficult. We 
have a challenging airspace. It is the best regulated, best 
controlled airspace in the world, and it has been a work in 
progress in integrating UAS, or unmanned aerial systems, into 
that airspace.
    We have had success in the past with the FAA [Federal 
Aviation Administration], but there is a long turn to get 
certificates of waiver in order to operate outside of military-
restricted airspace to use unmanned aerial systems.
    In that regard, we very much appreciate the legislative 
initiative that directs figuring out a way to integrate that 
airspace--UAVs [unmanned aerial vehicles] into the airspace--by 
2015.
    I think there is a tremendous opportunity to use UASs, 
particularly in my mission, for incident awareness as a result 
of a natural or manmade disaster. I mean, the ability to see, 
to understand, to build a common operating picture of a 
disaster could be greatly enhanced by the use of UASs, and so 
that would be the first place where I would see great utility 
in improving our ability to integrate our airspace.
    Mr. Johnson. Are there any other purposes for which you 
would use the drones in U.S. airspace?
    General Jacoby. What we would do, sir, is provide defense 
support to another civil authority or a lead federal agency, 
you know, upon proper request. And so there could be incidents 
where we were requested and authorized, perhaps, to support a 
law-enforcement activity, but none of that would obviate the 
need for us to operate within Posse Comitatus.
    Mr. Johnson. How can you guarantee that spying on the 
activities of Americans would not come into play? And how can 
you ensure that such action does not violate the Posse 
Comitatus Act?
    General Jacoby. It is very important to us, and it is 
clearly defined for us in law; and we don't do anything that we 
are not directed by the Secretary of Defense to do.
    In my headquarters specifically, I have eight law 
enforcement organizations that are represented. And so we have 
careful intelligence oversight of everything that we do within 
the homeland. And in fact, as I mentioned earlier, our 
priorities--keeping faith with the American people--is a 
priority of this command, and it will be done.
    Mr. Johnson. Is there any congressional meaningful 
oversight into the use of drones in American airspace?
    General Jacoby. Just from a regulatory standpoint, it is 
very restricted airspace and it is a challenge to use UAVs in 
that restricted airspace.
    As we move through the implementation of this legislation, 
I am sure there will be careful watch of ensuring safeguards 
that are in place.
    Mr. Johnson. So in other words, in restricted airspace only 
is--are these drones used currently--restricted airspace?
    General Jacoby. In either restricted airspace that is under 
military control of the airspace over a post, camp, or station, 
for instance, or under the specific direction of the Secretary 
of Defense in support of another lead federal agency, for 
instance FEMA, in terms of incident awareness in a natural 
disaster.
    Mr. Johnson. So FEMA would be able to request your 
capabilities?
    General Jacoby. That is correct. That is correct.
    Mr. Johnson. What about the FBI [Federal Bureau of 
Investigation] or a local police department?
    The Chairman. The gentleman's time has expired.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank both of you for your service.
    And General, best wishes on your retirement. That happened 
to me a couple of years ago in the National Guard. There is 
life after service for you and your family; so best wishes.
    I am mighty proud of the success of Plan Colombia. Sadly, 
when things are really positive, you don't hear about them. But 
I am really pleased that under the new government of President 
Juan Manuel Santos, they have recently rolled out a new 
strategy in the fight against FARC [Revolutionary Armed Forces 
of Colombia].
    What is the new strategy? How does it differ from the prior 
strategy in Colombia?
    General Fraser. Thank you, Congressman.
    And from my view, Plan Colombia has been very successful. 
It is a whole-of-government approach by the Government of 
Colombia to address the concern with the FARC. They have 
reduced the FARC from 18,000 down to 9,000, but the FARC are 
still an element that needs to be addressed.
    As a result of continued pressure over 10 years, the FARC 
have adjusted their strategy. And in conjunction with that, 
President Santos directed that their strategy change as well. 
They are working across the government. They have put a 
deliberate effort into adjusting that strategy. We provided 
support to them in a meaningful way as we helped them work 
through that design, and we are continuing to support them as 
they implement this.
    They are going to establish additional joint task forces 
that include not only military, but law enforcement. And they 
will have as well task forces in a maritime environment, as 
well as the air environment, and put a very deliberate focus on 
reducing the capability of the FARC to continue their efforts.
    Mr. Wilson. And I have seen it first-hand. Our family is 
very active in the Partners of the Americas Program. We have 
had exchange students from Colombia live with us, and 
unfortunately they couldn't go home because of the violence, 
but now they obviously can.
    And we have had two sons as exchange students in Cali, 
Colombia--Colegio Bennett. So it really is a story that the 
American people need to know because we hear all the time that 
we just can't make a difference, but we can in a huge country; 
40 million people.
    On the other hand, there is Venezuela. It has been reported 
concerning the counter-narco-trafficking activities in the 
region--what is Venezuela's role? And what has been the conduct 
of Chavez?
    General Fraser. Congressman, Venezuela has reduced its 
support to a lot of the counter-drug activity over the last 4 
or 5 years. They are starting to increase some of that, but we 
see most of the air traffic that departs South America towards 
Central America coming from Venezuela.
    They continue to conduct some operations in counter--some 
of those organizations. They just captured one of the leading 
members that Colombia was interested in getting hold of 
recently, but their efforts have not been enough; and so they 
continue to provide a basis on which narco-organizations can 
continue to operate.
    Mr. Wilson. And that is such a threat to the sovereignty of 
their country. That is really sad.
    General Jacoby, I am very proud. I have four sons currently 
serving under your command, and I am very grateful. I am also a 
strong supporter of your efforts for the missile defense 
system. I am concerned with a $256.8 million reduction for the 
ground-based midcourse defense program that this program will 
be at risk.
    Can you assure us that it won't?
    General Jacoby. Thank you for your question. Thanks for 
your children's service.
    Mr. Wilson. Thank you.
    General Jacoby. Ground-based missile defense is perhaps one 
of our most important missions in defending the Nation. I am 
very proud that NORTHCOM has that responsibility.
    To that end, as the combatant commander, my interest is 
that when we are threatened, that we understand the threat, we 
detect the threat. And when we pull the trigger, missile leaves 
the silo, intercepts, and defeats the threat. And so it is the 
reliability of that system of systems which I discuss with the 
whole array of stakeholders in the missile defense world. And 
we have a lot of tough conversations about this because we have 
a high standard of expectation.
    Despite the cuts, my conversations with General O'Reilly 
have gratified me in that we are embarked on a realistic 
testing schedule that takes us through 2017, one test a year. I 
am very happy about that.
    And then, of course, all the work that goes before a test 
and all the work that goes after a test; all contributing to 
that reliability. It gives me the assurance as a commander when 
we pull the trigger, it is going to work.
    Mr. Wilson. I think my time is up.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    General Fraser and General Jacoby, thank you very much for 
being here and for your extensive service to our Nation.
    And congratulations on your retirement, General.
    I wonder if you could tell us more about Exercise UNITAS 
Pacific. And speak to the emphasis on improving maritime 
interdiction capabilities with regard to the submersibles that 
are being used by transnational criminal and possibly terrorist 
organizations.
    We are hearing a little bit more about this, originating in 
the Southern Command's area of responsibility. And I am 
wondering how mature is this capability and is it used more for 
the traffic of drugs or people? And what do we have to 
counteract it?
    General Fraser. Congresswoman Davis, thank you very much.
    UNITAS is a maritime exercise. It is the oldest maritime 
exercise in the region, over 52 years now. We run it in two 
versions, one on the Atlantic, one in the Pacific. It really is 
a deep-water, a blue-water exercise that involves very 
traditional military exercises and capabilities. It has been a 
long-running exercise, very valuable to us on both coasts of 
South America and we continue to work that and build 
partnerships with our partner navies.
    You brought up the issue of submersibles, essentially 
submarines, as well as semisubmersibles. We had seen a decline 
in the number of semisubmersibles. And these are vessels, as 
you know--100 feet long, a crew of six, very low waterline, 
very difficult to detect, and can carry up to 10 metric tons of 
cocaine.
    We are also seeing fully submersibles; dimensions very 
similar, but they can submerse to 60 to 100 feet to avoid 
detection as they--built in the jungles, primarily of Colombia. 
They transit from Colombia or the northern part of South 
America nonstop to Central America. And they are difficult to 
detect as well.
    General Fraser. It is very, very difficult and time-
consuming and expensive to try and find them in the open 
oceans. And so we are working with our interagency partners, as 
well as our international partners, to see if we can do a 
better job of finding where they are built, how they are built, 
who is building them so that we can interdict them on land.
    This year was the first year that we had seen 
semisubmersibles in the Caribbean. So we see an increasing use 
of those vessels.
    Mrs. Davis. I know that the LCS [Littoral Combat Ship] is 
not being deployed in those areas. Where does that fit into 
this?
    General Fraser. Well, ma'am----
    Mrs. Davis. At all?
    General Fraser [continuing]. When the LCS comes on line--
and it is still in production right now, so they are beginning 
production; so it will come on line later in this decade. And 
that is one of the primary ships that will be of benefit to 
supporting our counter-trafficking efforts within both the 
Caribbean and the Pacific.
    Mrs. Davis. Okay. Thank you.
    I just wanted to say as well that I certainly appreciate 
your focus on the interagency capacity building, but I am also 
whether you feel that enough people, enough countries and 
partners have really bought into that. And is there anything 
that you see coming along that we should really be aware of in 
terms of whether it is funding; whether it is budget cuts? 
Because I think that sometimes it is hard for people to see 
that this provides a multiplier for us in the field.
    General Fraser. What I would argue is I see growing 
relationships within the U.S. interagency to address this 
effort. And I find us in a supporting role, not a leading role, 
and that is where we should be.
    With our partners around the region we see the same thing 
across all areas. I see growth in that area as well.
    What I would ask for is continued support to the foreign 
assistance budgets because dealing with law enforcement, 
judicial systems, underlying causes of this problem are really 
the solution to the problem.
    Mrs. Davis. As you depart, any other words of wisdom? You 
know, what made you crazy throughout your service?
    General Fraser. I don't think----
    Mrs. Davis. As it relates to Congress.
    General Fraser. I would say I genuinely appreciate 
Congress, this committee's as well as the entire Congress' 
support to our men and women in uniform and our civilians who 
also support us.
    They know you care about them. They know you care about 
their capabilities and their requirements. And I just ask for 
you to continue to maintain that faith with our men and women 
serving and our veterans and their families.
    Mrs. Davis. Thank you.
    Thank you again for your service, and your family.
    The Chairman. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    General Fraser, General Jacoby, thank you for being here 
and for your service.
    General Jacoby, I know that Chairman McKeon earlier 
addressed my concerns about assuming additional risk with the 
proposed ACA wing closures. And having the 177th Fighter Wing 
in my district, this is a major area of concern for me. And I 
am looking forward to reviewing the analysis you and your team 
have done to justify these decisions.
    With that said, I have two questions. Could you please 
confirm whether or not there is funding for the ACA mission 
across the F-Y-D-P, the FYDP [Future Years Defense Program], in 
NORTHCOM proposals, to not continue funding? Is it the 2-year 
increments you did in the past? Is that what we are doing?
    General Jacoby. Congressman, thanks for the question.
    I believe we are adequately funded, 16 sites up to April 
13th. And then beyond that we drop to the 14 sites. And I 
believe that there is adequate funding. And that funding is 
across the 5-year defense plan.
    Mr. LoBiondo. 5-year.
    And also are you comfortable that with the delay in the F-
35 procurement, that the budget submission has sufficient funds 
to maintain the necessary Strike Fighter inventory to meet 
national military strategy requirements, especially those that 
apply to the ACA mission?
    General Jacoby. My concerns are specifically the ACA 
mission, and whether it is F-35s, F-22s, F-15s, F-16s--we have 
had any number of platforms pull the mission, to include CF-18s 
from Canada, and pull that mission successfully. And we have a 
robust inspection program that ensures whatever platform has 
been provided by the United States Air Force; that it is 
capable and meets the mission standard.
    So, you know, specifically on ACA, at this point in time, I 
believe that we are, in terms of platforms, adequately 
supported by the United States Air Force for that mission, and 
the Canadian Government.
    Mr. LoBiondo. Okay. Thank you, General.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here.
    NORTHCOM and SOUTHCOM share a critical common boundary 
through which the majority of drug trafficking flows. And not 
too many years ago Secretary Rumsfeld, he at one point tried to 
dismantle DOD's counter-narcotics programs; so a couple of 
questions on that.
    First, can you tell the committee how you are cooperating 
in this critical area? Secondly, I guess the best way to put it 
is: What percentage would be impacted by the potential 
sequestration cuts in this vital and important area?
    General Fraser. Congressman, let me start, and then I will 
turn the floor to General Jacoby.
    We have a very close relationship between our two commands. 
Our staffs talk weekly. Our military deputies talk on a monthly 
basis. And we meet periodically as well to coordinate our 
strategies, coordinate our efforts as we cross that land 
boundary, is where I would say primarily.
    In the maritime boundary, JIATF-South's [Joint Interagency 
Task Force South] area of operation already encompasses not 
only NORTHCOM and SOUTHCOM, but portions of AFRICOM [Africa 
Command], European Command, as well as Pacific Command.
    So I see great unity of effort across our combatant command 
boundaries in both areas, be it land and/or maritime 
environment; Sequestration, from my standpoint, as you know--we 
will go at each of our accounts and decrement each of our 
accounts in some manner.
    On a basis I receive that counter-narcotics funding from a 
central transfer account in the Department of Defense. So it 
will really be--how the Department of Defense decides to 
apportion that money, will depend on how much we are affected 
directly within our operations. But it will impact the maritime 
environment primarily because that is where a lot of the 
capability goes; but it will impact also our ability to support 
and train with our partner militaries throughout the region as 
well and equip them.
    General Jacoby. Thank you, Congressman. I think we have an 
unprecedented level of cooperation between our two commands, 
and if we didn't, Grace and Rena would get on us; so we are 
doing a lot of things to take advantage of some of the lessons 
we have learned over the last 10 years of warfare. And that is 
that bad things happen at boundaries; and they are a weakness 
unless you make them a strength. And Doug and I have decided to 
make it a strength; where a boundary now is a place where 
cooperation takes place.
    And as I said, in an unprecedented way along the Mexico, 
Guatemala, Belizean border, where we have real concerns, the 
cooperation has reached an all-new high, to include the Mexican 
participation, which is critical. So I am very confident that 
we are working that boundary very, very carefully and 
diligently. And I think we are going to have success there.
    In terms of counter-narcotics funding, as General Fraser 
indicated, it is very difficult to know how the additional cuts 
would play out. I would of course argue that counter-narcotics 
funds used by the Department of Defense to support lead 
agencies in the homeland are your greatest bang for the buck. 
It is our homeland. And so that is where you would want to 
start. And so we will make that argument if that comes to pass.
    But there are many, many competitors--worthy competitors--
for each and every one of those dollars.
    I would say in the homeland that when we use counter-
narcotics funding to support lead agencies you get a twofer, 
because our standard is we support our great partners, 
primarily at DHS [Department of Homeland Security] and 
primarily within that CBP [Customs and Border Protection]; we 
get tremendous training value.
    And I talk to commanders all the time that have the 
opportunity to train with our partners on the southwest border, 
and they absolutely feel it is the best possible training they 
could get for integrating all their systems, to working in a 
complex interagency environment against a noncooperative enemy 
which is a real threat to our country.
    So we will watch that very closely. I think it would be a 
real problem for us if we lost more money due to sequestration.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your terrific 
service. Congratulations on retirement. I hope you have got a 
place on a lake or something; at least a golf course.
    It seems to me that over the last decade or so, during a 
time when the Nation has felt, and correctly so, greatly 
threatened, and we are in a time of pretty significant 
buildup--military buildup--in end strength and activities, that 
we have actually increased the number of COCOMs.
    And I am wondering if it isn't perhaps time to take another 
look at that; sort of a cost-saving rationalization of the 
geographic combatant commands. And I am looking at your--I am 
not picking on your two specifically here, but in general, if 
you look at SOUTHCOM--got a budget of something over $200 
million; about $50 million for headquarters support. NORTHCOM, 
similarly, over a couple hundred million dollars, and then some 
other costs that are taken up in each service as part of that.
    NORTHCOM, according to my notes here, has something over 
1,500 people; 17 general officers or members of the Senior 
Executive Service. SOUTHCOM has got 22 generals or SES [Senior 
Executive Service] and over 3,000 people. No forces committed 
to either command full-time, but of course you actually have 
access to them, and we have just heard some testimony here from 
both of you on that.
    Are you aware of any discussions about perhaps looking 
again at the number and composition of COCOMs? Either one of 
you? Both of you?
    General Fraser. Congressman, this conversation comes up on 
a recurring basis I think as the Department looks at the 
Unified Command Plan. And I think that discussion is ongoing.
    Mr. Kline. Thank you.
    General Jacoby.
    General Jacoby. Congressman, there have been a number of 
studies in the past that have looked at this. None of them have 
ever ended up recommending consolidation of those two commands. 
But I know that the Unified Command Plan will undergo the same 
scrutiny that all the other functions in the Department of 
Defense undergo as the Secretary has to turn over every rock.
    Mr. Kline. Right. Well, I appreciate that. Those are, I am 
sure, exactly accurate answers.
    But we are in an extraordinary position right now, as we 
are reducing end strength. And rapidly in the Army and the 
Marine Corps particularly, we are looking at budget cuts that 
are keeping all of us here on this committee awake all the 
time, and perhaps you as well, and the men and women in your 
commands.
    And so it just seems to me that this would be a good 
opportunity for us, the people on this committee and folks in 
the Pentagon, to look again at the composition of the COCOMs 
and the number and size and missions and see if we can't 
perhaps achieve some savings there.
    General Fraser, I just couldn't help--I was listening to 
the conversation. Mrs. Davis asked some questions about drug 
trafficking and you were talking about submarines and 
semisubmersibles. And I happened to be in Colombia not long 
ago, a few months ago, and had a chance to look at those 
things.
    And I don't know whether those are the bravest people in 
the world that would drive those things, or the dumbest. I am 
not sure. But incredible--if Americans could see the lengths to 
which the drug traffickers will go with submarines that I 
wouldn't want to float on the surface in them, much less go 
underwater with them.
    It is extraordinary the lengths to which they are going, 
and I just wanted to say I very much appreciate the work that 
you are doing and the Americans are doing, our partners are 
doing, the Colombians are doing; a heck of a problem.
    So again, thank you very much for your service, and Mr. 
Chairman, I yield back.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman.
    Thank you, General Fraser, and also General Jacoby, for 
being here.
    And congratulations on your retirement; hopefully, you will 
stay down in south Florida where we have plenty of golf courses 
for you to enjoy.
    Kind of dovetailing off of a theme that we have heard up 
here in Washington, D.C., for quite some time--you talked about 
the transnational criminal organizations. But we also have an 
issue with Iran being down in this SOUTHCOM AOR. And you and I 
talked about this last week. You know, the fact that we just 
recently had Mahmoud Ahmadinejad in Ecuador, Venezuela, 
Nicaragua, and Cuba; the fact we have a Hezbollah footprint. 
You know, we know that Iran was dealing with Mexican drug 
cartels for the assassination plots against a couple of 
ambassadors.
    So my question is: When you look at this type of activity, 
how do you assess Iran's involvement in the SOUTHCOM AOR? And 
also I would like us to continue the conversation, to talk 
about the battle hand-off TTPs [tactics, techniques, and 
procedures] that you share, because this is flowing from South 
America up through Central America and across our borders, 
especially when you look at that category on the Border Patrol 
website called OTMs--the other than Mexicans.
    So, if you could, address your assessments on Iran's 
involvement in your respective AORs, and also those TTPs for 
battle hand-off.
    General Fraser. Thank you, Congressman West. And we did 
have a good conversation on this topic.
    As I see, Iran is interested in engaging in building 
relations with counterparts in Latin America. They have 
increased their number of embassies in the last 5 years; 
doubled those. They now have 10 embassies. They have also 
helped support different cultural centers, in building of 
cultural centers, throughout the region.
    Primarily, I see a diplomatic as well as commercial 
interests; economic interests. And that is how their 
relationship has been growing. There is connections, and that 
is our concern as we watch this--the connections with Hezbollah 
and Hamas, who have been in the region for a number of years, 
primarily still focused on conducting illicit activity to 
provide funding support and logistics support back to parent 
organizations within the Middle East.
    That is still the relationship that I see today. I don't 
think that President Ahmadinejad had the impact that he was 
looking for, except with the ability to continue to strengthen 
his anti-U.S. connections in the region.
    General Jacoby. Thank you.
    As I mentioned earlier, there is not a threat overseas in 
the other combatant commander areas of operations that I don't 
keep an eye on. And I have got both eyes on the Iranian issue.
    It is our working assumption that if we had problems with 
Iran, that it could get reflected back into the homeland. And 
so we are working closely with all the agencies on a daily 
basis in our threat working group to make sure that we 
understand bleed-over of the Middle East threats into the 
homeland.
    To that end, I would also say that our partners in Canada 
and Mexico are great allies in protecting this continent from 
the terrorist threat.
    Mr. West. With that being said, do you feel that you have 
the requisite allocation of forces to be able to contend with 
any escalation you may see, or any collusion that intensifies 
between, you know, Iran, Hezbollah, Hamas, and these 
transnational criminal organizations?
    General Fraser. Congressman, we continue, as General Jacoby 
mentioned, to keep a very close eye. And I agree with him; I 
keep both eyes on this as well. And I am confident as we work 
and if we get indications of anything from which I am concerned 
about, that we can make those requests to the chairman and the 
Secretary of Defense and we will get direct support.
    General Jacoby. In our case in the homeland, and 
considering potential threats from Iran, I believe it is less 
an issue of forces and more an issue of intelligence and 
warning.
    We have an extraordinary relationship with law enforcement 
activities throughout the United States, and with our partners 
both in SOUTHCOM and in Central Command. And so I feel that we 
are well postured now to see it coming and I am confident that 
we will be given resources required to deal with it if that 
comes to pass.
    Mr. West. Well, thank you both. And being savvy military 
commanders, I am sure you know that the enemy always looks for 
a gap by which he can exploit you. And I hope that we are not 
showing weakness along our southern border area because we 
don't need to have a soft underbelly.
    So with that being said, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I appreciate that.
    Gentlemen, thanks for being here and your long and 
distinguished service, et cetera, et cetera. We are proud of 
you.
    And good luck in whatever you decide to do, General Fraser, 
moving forward.
    Real quickly, a little bit of a line of questioning that my 
colleague, Mr. West, talked about. Hamas and Hezbollah have 
focused principally on illicit activities. Do we have the kind 
of insights or tools to understand when they might change that 
focus, General Fraser, from those activities towards some 
threats to the homeland?
    General Fraser. We are very focused--well, we support the 
intelligence community that is very focused on this issue, not 
only within the Central Command region of responsibility, but 
across the globe. So I am confident we have that insight.
    Mr. Conaway. General Jacoby, part of what we are doing here 
is we have the, you know, the Secretary of the Air Force, the 
chairman of the Air Force come in and talk about reduction in 
the number of airplanes and those kind of things. We are trying 
to translate that into what they are doing at Big Blue, versus 
what you have access to.
    Given the reductions in fighters and in other aircraft, how 
does that affect what you are--when you look at your mission 
and say, ``I need to do these things,'' and then you ask for 
those assets, what has been the impact of these--or will be the 
impact of these reduced airplanes to defending the homeland?
    General Jacoby. Congressman, I am reliant on the United 
States Air Force and the total Air Force for the accomplishment 
of our NORAD and NORTHCOM missions.
    On the NORAD side of the house, almost all of the alert 
sites, except for the ones in Alaska, are served by the Air 
National Guard. So I am very reliant on the Air Guard for the 
fighter support required for the air-control mission.
    In disaster response, defense support to civil authorities, 
of course, the Air National Guard and the Air Reserve have been 
critical players in responding effectively and in a timely 
manner to disaster. In fact, their responsiveness is the key to 
much of our success.
    So I would say that as the combatant commander, for me it 
is a matter of the United States Air Force meeting 
requirements, both to defend the homeland and to respond in 
support of civil authorities.
    Mr. Conaway. So at this stage, you are not seeing those 
reductions affect their ability to service what you need done?
    General Jacoby. No, I have not. And General Schwartz has 
had to make some real tough calls here and it will mean 
priorities will have to be adjusted so we get what we need in 
time to take care of our responsibilities in the homeland.
    And so we trust the Air Force to do that. I know there have 
been some tough calls. I am a huge admirer and respecter of the 
Air Guard, and I look to the Air Force to supply the 
requirements for both those missions.
    Mr. Conaway. Thank you.
    General Fraser, do you want to talk to us about China and 
Russia's activities in the SOUTHCOM area? Just because they 
have got activities, they are not necessarily things that we 
should be worried about. It may just be commercial competition 
and/or other things. Could you visit with us about what your 
perspective is on what they have been doing in South America?
    General Fraser. Thank you, Congressman.
    I find that China's engagement is very much focused on 
diplomatic and economic; very engaged in commodities purchases 
and agreements. But we see them also increasing their 
engagement militarily. They have offered weapons for sale, 
primarily some light attack aircraft, as well as air-defense 
radars and some other equipment. And they do provide military 
training opportunities for officers from various countries in 
the region to be educated within region.
    I do not see a military threat in the region. I see them 
very much in the region very much engaged economically and 
diplomatically with China, like they would with any other key 
partner.
    With Russia, I see their focus primarily on diplomatic 
engagement as well; a lot from the economic standpoint in a 
military focus. But we have also seen recent engagement in the 
counter-drug effort. Their counter-drug czar was just recently 
in the region making agreements for training and helping equip 
governments to address that concern also; again, primarily 
diplomatic, with commercial sales for military weapon.
    Mr. Conaway. Thank you, gentlemen. Who has responsibility 
for Gitmo? Either one of you? I should know that.
    General Fraser. Sir, I have that.
    Mr. Conaway. All right. You don't need to comment, but this 
recent article about the soccer field and the monies expended 
there are frustrating, at about $4,300 per detainee. I am not 
sure 171 of them can still play soccer. It is troubling; indeed 
head-scratching. I know it was made back in 2010, but that one 
is troubling.
    Thank you, gentlemen. Appreciate it.
    I yield back.
    The Chairman. Did you wish to comment on that, General?
    General Fraser. Chairman, if I might. Thank you for the 
opportunity to address that concern.
    As I look at Guantanamo, I had four issues that we need to 
deal with, and that is work the efficiencies and understand as 
we uncover every rock, how can we operate that encampment more 
efficiently; comply with Common Article 3 of the Geneva 
Convention; as well as comply with the recommendations from the 
Walsh Report; and maintain a secure environment for force 
protection across the camps.
    In the consolidation that we worked, and we have been 
working at consolidation to move detainees from camps one 
through four, into camps five and six, primarily--in that 
effort we had a field that was in camp four that was like the 
one that we just built within Guantanamo, and it provides a 
very secure environment for our guards, because it reduces 
their interaction, but provides an outlet, if you will, for the 
detainees.
    And so that really is my focus on the reason for building 
that field. And as a result of the consolidation, we reduced 
the guard force by 150 guards and overall by 200 guards. That 
equates to, conservatively, $3 million to $4 million a year in 
savings.
    And so we think that the investment in that field--I think 
that investment in that field was worth the money.
    Mr. Conaway. Thank you, General Fraser. There is always 
another side to the story, and typically it is helpful to get 
the other side.
    The fact that your wife grinned remarkably when I asked the 
question means that you and she have had this conversation--or 
you have had this conversation with other folks. So I 
appreciate that clarification and thank you for that. Again, 
thanks for your service.
    General Fraser. And thank you, Mr. Conaway.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman.
    And I had the opportunity to have very extended office 
calls with both these commanders in the previous week and 
opportunity to ask them numerous questions.
    So actually they have responded to those questions already, 
so let me just use my time to then publicly state that I can 
personally attest that both of these commanders are 
extraordinary leaders.
    We are fortunate to have them in uniform. Our thoughts and 
prayers are with your troopers and your families at this time. 
And I look forward to continuing to work closely with you going 
forward as we work through the very difficult issues this year 
and the years to come.
    And particularly for General Jacoby, as you work through 
the detailed planning process, fleshing out those details for 
the joint concepts attendant to the review--I look forward to 
working with you on that.
    And again thank you.
    Thanks, Mr. Chairman.
    The Chairman. That concludes requests I have for questions.
    I do have one final question I would like to ask both of 
you, and that is: How would sequestration affect your ability 
to fulfill the missions of your commands?
    General Fraser. Chairman, it would impact us across the 
board, because as you well know better than I, it has a 
targeted reduction in every program element of our commands. 
And so it would impact our ability to support communications 
with our military groups and embassies around the region.
    It would impact our ability to conduct as well as support 
our military partners in the effort against transnational 
organized crime. It will impact our ability to continue to 
train and build the relationships with our partners. In each 
case, it will have a deliberate impact.
    As well, as you look in Colombia, as our support to the 
Government of Colombia as they counter the FARC, as well as we 
are working with Peru to help them counter Sendero Luminoso. 
Each one of those areas would be decremented.
    And the unknown for me is we receive a lot of support from 
external to the command, so each of the services and the impact 
on their capabilities is an unknown that I don't have right 
now; and so I can't give you the full extent of how 
sequestration would impact the command overall.
    The Chairman. Thank you.
    General Jacoby. Chairman, I echo many of General Fraser's 
concerns. I think the greatest concern we have is unknown, the 
unknown of it.
    I believe in my heart of hearts that it would create a 
cascading effect of risk, which would jeopardize the defense of 
the homeland. It would fail to meet the expectations of you, 
this committee, Congress, and the American people for how we 
should defend our people.
    The Chairman. Thank you for those responses.
    I have great concern. I think the cuts that we are going 
through on the current budget are excessive; the $487 billion 
over the next 10 years; and then sequestration of $500 billion, 
$600 billion on top of that in the same budget year, probably 
when we will be dealing with wrapping up a continuing 
resolution, because we probably won't finish up a budget this 
year, given the environment around here.
    And then the budget cuts that we are looking at right now, 
the chiefs have had a lot of time to digest that. The COCOMs 
have had a lot of time to digest that and to have input and to 
see results of planning; where sequestration is just an 
automatic, across-the-board cut on every line item in the 
budget.
    I see total chaos around here in January if we don't fix 
that before that time. So I am hopeful that it won't--I am 
hopeful that we are able to fix it so that it doesn't come to 
pass. When we originally voted for the Deficit Reduction Act we 
were promised that that was so severe that it never could 
happen. And I think we all understand that.
    It is just how we get from here to there and actually get 
it fixed. And I know we each have different ideas as to how 
that happens. But it is something that we really need to 
address, sooner better than later, I feel.
    Does the ranking member have any closing comments?
    Thank you very much again for your service.
    Rena, thank you for all the support you have given this guy 
for these many years.
    And we really appreciate your service. Pass that on, if you 
would please, to those who serve under you. We appreciate all 
their service.
    Thank you very much. This hearing stands adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 6, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

               Budget Requests from U.S. Southern Command

                       and U.S. Northern Command

                             March 6, 2012

    The committee meets today to receive testimony on the 
status and posture of both our Southern Command and Northern 
Command. I am pleased to welcome General Douglas Fraser, 
commander of U.S. Southern Command; and General Charles Jacoby, 
commander of U.S. Northern Command and North American Aerospace 
Defense Command. General Fraser, I understand this will be your 
last appearance before the Committee in this capacity. After 37 
years in the Air Force, we thank you for your service to our 
country and wish you all the best. Gentlemen, thank you for 
your long and distinguished service to our Nation and thank you 
for joining us today.
    Looking at SOUTHCOM, General Fraser, in my mind, the 
illicit trafficking threat is the greatest challenge we face in 
your geographic area of responsibility. In your statement, you 
highlight the threat of transnational criminal organizations 
and their role in SOUTHCOM's area of responsibility. Growing 
crime and violence in Central America as well as the continuing 
growth of Chinese, Russian, and Iranian influence in the region 
bring with them opportunities and challenges. China, Russia, 
and Iran have been very active in Latin America, through arms 
sales, personnel exchanges, investments, and trade deals. In 
addition, the activities of Hezbollah in the region are very 
troubling. It is also--I should add--one that requires close 
collaboration and coordination with your colleague at the table 
from NORTHCOM, as well as your interagency partners. The 
committee would benefit from your assessment of trends in the 
activities and influence of these actors in the western 
hemisphere.
    Regarding NORTHCOM, drug-related violence is a threat 
directly impacting the U.S. homeland on a daily basis, and we 
need to treat it as a national security imperative. I laud the 
heroic efforts of Mexican security service personnel and public 
officials, who--make no mistake--are risking their lives and 
the lives of their families in a war against these brutal 
criminal enterprises. We need to support these heroes in their 
fight--while fully respecting the sovereignty of Mexico. I look 
forward to hearing your assessment of the progress being made 
by Mexican authorities, and what NORTHCOM is doing to support 
them and build their capacity and capabilities. Additionally, 
the committee is concerned about the sufficiency of the FY 2013 
budget for the Ground-based Midcourse Defense system, which 
NORTHCOM relies on to protect the U.S. from long-range 
ballistic missiles. Homeland defense is supposed to be the 
first priority for missile defense, but this budget request 
does not reflect that prioritization. We must be careful not to 
compromise homeland missile defense for the sake of theater 
missile defense or budget shortfalls.
    In this continually changing budget environment and with 
the new Defense Strategy laid out by the President earlier this 
year, evaluation of each combatant command and their 
interpretation of missions and goals within the Department 
becomes vital. With the looming threat of sequestration, we 
must also understand the consequences of such severe cuts on 
the effectiveness of your commands. Gentlemen, thank you again 
for appearing before us today.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

               Budget Requests from U.S. Southern Command

                       and U.S. Northern Command

                             March 6, 2012

    I would like to join Chairman McKeon in welcoming General 
Fraser, and General Jacoby. We appreciate your time and look 
forward to hearing your thoughts on the budget requests for 
your respective commands.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region, but our regional commands will continue to play a vital 
role as we work to confront national security threats wherever 
they arise.
    I look forward to hearing from General Fraser regarding 
your important issues at SOUTHCOM. I want to hear more about 
your thoughts on the nontraditional threats in the region, the 
rising violence and instability in Central America, our 
military-to-military cooperation in the area, and your 
counternarcotics duties. While SOUTHCOM lacks traditional 
military threats to the United States, these issues are 
important to the United States and often require an interagency 
approach to address them. I hope you can take some time to 
address how you are working with your interagency partners and 
were we can make progress in that area.
    In regard to NORTHCOM, I look forward to hearing about how 
we are working with Mexico to address issues on our Southern 
border. We focus a lot of our attention on the Southern border 
but I'd also like to hear your views on some of challenges on 
our Northern land borders. I'd also like to hear your thoughts 
about what global warming and increased access to the Arctic 
mean for national security, how NORTHCOM, in partnership with 
EUCOM [European Command], is addressing this challenge and 
whether you have the resources you need.
    Again, thank you all for your time and I look forward to 
hearing your testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Last week, a ship dropped anchor off of Mombasa, Kenya, 
and cut the Indian Ocean East Africa Marine Systems (TEAMS) cable which 
connects to East Africa. This TEAMS cable was carrying redirected 
traffic from the earlier cutting of three other cables in the Red Sea. 
Kenya's Ministry of Information and Communications says that the cost 
of the Internet outage could reach $500 million by the time repairs are 
finished. In 2008 there were a number of submarine cable disruptions. 
The first incident caused damage to up to five high-speed Internet 
submarine communications cables in the Mediterranean Sea and Middle 
East causing major Internet disruptions and slowdown for users in the 
Middle East and India. This incident called into doubt the safety of 
the undersea portion of the Internet cable system. In late February, 
there was another outage affecting a fiber optic connection between 
Singapore and Jakarta. On December 19, 2008, FLAG FEA, GO-1, SEA-ME-WE 
3 and SEA-ME-WE 4 were all cut. While there was considerable discussion 
from a number of COCOM posture hearings on the aspect of cybersecurity, 
it would appear as though most have approached the issue from the 
perspective of cybersecurity from a software perspective. In 
consideration of these Internet disruptions due to damage to submarine 
and fiber optic cables, what alternative architecture has NORTHCOM 
designed to account for these possible disruptions? On the design of 
these alternative architectures, what is the current status? Is 
NORTHCOM able to fulfill its mission should cables running to/from the 
U.S. be cut?
    General Jacoby. [The information referred to is classified and 
retained in the committee files.]
    Mr. Turner. Please describe, in detail, what metrics you will use 
to agree to reduce the shot doctrine for protection of CONUS against 
long-range missile threats. Are you now ready to endorse the MDA plan 
to reduce shot doctrine by 2018-2020?
    When was the last drill or exercise conducted by NORTHCOM against a 
theoretical or hypothetical unauthorized or accidental launch by a 
Russian or Chinese ICBM directed at CONUS?
    Is NORTHCOM comfortable that there will not be an intercept test of 
the GMD [Ground-based Midcourse Defense] system involving an ICBM 
target until 2015, yet a mobile ICBM threat against CONUS may develop 
sooner than that?
    What were the findings of the NORTHCOM GBI study conducted before 
the 2010 BMDR?
    Please describe whether and why COBRA DANE is an important 
capability for CONUS defense.
    How does the decision to remove the SBX radar from day-to-day 
operational readiness affect the capability of the GMD system? How much 
warning time is necessary to make SBX operational, in the event of a 
threat to the United States?
    How much lead time would NORTHCOM need to ensure all available GBI 
silos would be outfitted with available GBIs? What is the maximum 
number of GBIs the U.S. could deploy each year through 2024 (and please 
detail availability of GBI silos and GBIs).
    If there were 10 ICBMs deployed by North Korea by the end of 2012, 
would we have enough GBIs to defend CONUS under current shot doctrine? 
How about by 10 DPRK ICBMs by 2020? How about 20 North Korean ICBMs by 
2020, under current and the proposed MDA shot doctrine in 2020?
    What are the plans to deploy SM-3 IIB by 2020 to defend CONUS from 
North Korean ICBMs? How many IIB missiles will be available for the 
protection of CONUS from North Korea? Are there any plans for land-
based IIB missiles for the protection of CONUS from North Korea? Would 
NORTHCOM be concerned if the IIB was not able to be deployed on Aegis 
BMD ships at IOC in 2020?
    General Jacoby. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. General Fraser, in your prepared statement, you 
indicated that SOUTHCOM had conducted a manpower analysis to align 
resources and functions. Can you please share the results of that 
analysis? To what extent did the Department's policies on workforce mix 
and cost factor into that analysis. Please support your response with 
workforce and cost data as required by statutes and policies.
    General Fraser. Between October and December 2011, U.S. Southern 
Command (SOUTHCOM) conducted a comprehensive manpower review to examine 
how our resources are aligned against Command priorities. Certain facts 
and assumptions guided our study: 1. The potential for further 
Efficiencies-driven cuts exists. 2. Diminishing funding for Reserve 
augmentation. 3. Given the current zero-growth environment, no new 
authorizations will become available.
    As a result, SOUTHCOM looked to posture its permanent and 
nonpermanent resources in the most efficient manner possible. For our 
manpower analysis, Military, Civilian and Contractor Full Time 
Equivalents (FTEs) were arrayed against two measurements: the current 
list of prioritized Intermediate Military Objectives (IMOs) from our 
Theater Campaign Plan, and our Joint Mission Essential Task List, which 
are derived from Presidential and Secretary level guidance. More than 
1,300 requirements were individually examined, and the results compiled 
to provide a picture of headquarters and individual directorate 
manpower. Our analysis showed that more than 50 percent of our manpower 
is aligned against our top five IMOs, 20 percent against the remaining 
eight IMOs, and slightly more than 20 percent against HQ mission 
support, which is typical of a large headquarters. Our analysis 
indicated that our manpower is properly aligned with our requirements.
    The scope of the study strictly focused on the workforce mix of 
existing manpower resources as arrayed against command missions and 
functions, per DOD Instructions. A detailed cost analysis was outside 
the scope of this study.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current SOUTHCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    General Fraser. In light of the Secretary of Defense-imposed fiscal 
year 2010 cap on authorized manpower, and as part of Department of 
Defense efficiencies efforts, we examined our mission areas and 
prioritized them according to our Theater Campaign Plan-based 
Intermediate Military Objectives (IMOs). Our manpower mix (48 percent 
Military, 41 percent Civilian, and 11 percent Contractor, is 
appropriate for our mission set. SOUTHCOM has sought no corresponding 
increase in contracted manpower.
    Ms. Bordallo. Did SOUTHCOM seek relief from DOD mandated civilian 
personnel levels in order to in-source contracted work more cost-
effectively performed by civilians?
    General Fraser. HQ SOUTHCOM has not sought any increases in DOD-
mandated civilian personnel levels and has no further insourcing 
initiatives. Contractors are only used to source highly technical 
positions and capabilities not found in U.S. Government personnel.
    Ms. Bordallo. To what extent has SOUTHCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    General Fraser. In keeping with 2009 Secretary of Defense and 
Presidential guidance to reduce reliance on contractors and to maximize 
value to the U.S. taxpayer, HQ SOUTHCOM has an established insourcing 
record, which began in 2007 with our Contractor-to-Civilian-Conversion 
(CTCC) project. Under this initiative, HQ SOUTHCOM converted 55 
contractor requirements to civil service positions with a 33 percent 
savings. SOUTHCOM contractors are directed primarily against highly 
technical requirements, or those not found in U.S. Government 
personnel.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting SOUTHCOM are the most cost-effective and risk-
averse source of labor?
    General Fraser. We have a responsible and efficient policy on the 
use of contractors. Contractors are only used to source highly 
technical positions and capabilities not found in military or federal 
civilian personnel.
    Ms. Bordallo. What processes are in place within SOUTHCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    General Fraser. SOUTHCOM expects no reductions in our current 
civilian workforce and has sought no increase in contracted manpower.
    Ms. Bordallo. In the SOUTHCOM plan for the inventory of contracted 
services in accordance with section 8108(c) of last year's 
appropriations act, signed by your Chief of Staff on September 30, 
2011, and submitted to the congressional defense committees as part of 
the consolidated DOD plan, SOUTHCOM planned to begin modifying 
statements of work beginning October 1, 2011. How many contract actions 
have been executed with the new requirements since October 1, 2011?
    General Fraser. Since October 2011, all new requirements, including 
options, processed by a contracting office for award have included the 
Contractor Manpower Reporting (CMR) requirements. New actions consist 
of 57 requirements and 3 options exercised.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions SOUTHCOM has had 
approved to date and the reason for those exceptions, as well as any 
exceptions that were requested but not approved, and the justification 
for such.
    General Fraser. In July 2011, SOUTHCOM sought, and ultimately had 
approved, a technical correction to our FY10 baseline as reflected by 
the Office of the Secretary of Defense Cost Assessment and Program 
Evaluation (OSD CAPE). Our previous baseline did not include 55 
Contractor-to-Civilian-Conversion (CTCC) positions approved in 2008. 
The correction was supported by both the Department of the Army and The 
Joint Staff.
    Ms. Bordallo. As efficiencies are being executed across SOUTHCOM, 
are the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    General Fraser. All Combatant Commands were directed to divest our 
Standing Joint Force Headquarters (SJFHQ) functions and therefore 
eliminated our SJFHQ billets. For SOUTHCOM, that meant the loss of 50 
military and 4 civilian billets. The functions performed by the SJFHQ 
were also eliminated. These were the only billets eliminated as part of 
the recent efficiencies activities. We have gained additional 
efficiencies by streamlining operations and consolidating functions.

    Ms. Bordallo. You stated you reduced your workforce by 141 full-
time equivalents. Where those reductions based on mandated civilian 
levels or directly correlated to workload and mission requirements? 
What have you done to ensure the workload associated with those is not 
being inappropriately performed by contractors in lieu of civilian 
staffing?
    General Jacoby. The net loss of 141 full-time equivalents impacted 
all three categories of personnel (military, civilian and contractor) 
who support the NORAD and USNORTHCOM mission set. The majority of the 
net loss is due to the mandate to reduce by 10 percent per year for the 
period of FY2011-2013 funding for service support contracts. The 
workload associated with this reduction shifted from our contract 
workforce to our Government (military and civilian) workforce.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current NORTHCOM workforce construct reflect an 
appropriately balanced workforce between civilian, military, and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    General Jacoby. In light of the Secretary of Defense-imposed fiscal 
year 2010 cap on authorized manpower, and as part of Department of 
Defense efficiencies efforts, we examined our mission areas and 
prioritized them according to our Theater Campaign Plan-based 
Intermediate Military Objectives (IMOs). Our manpower mix (48 percent 
Military, 41 percent Civilian, and 11 percent Contractor, is 
appropriate for our mission set. SOUTHCOM has sought no corresponding 
increase in contracted manpower.
    Ms. Bordallo. Did NORTHCOM seek relief from DOD mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by civilians?
    General Jacoby. Yes, USNORTHCOM sought relief from DOD for mandated 
civilian personnel levels in order to in-source contracted work that 
was more cost effective if performed by civilians. Prior to the 
announcement to freeze the number of civilian personnel at the FY10 
level, USNORTHCOM intended to in-source 90 contract full-time 
equivalent (FTE) positions in FY11. As DOD assessed the impact of this 
mandate, USNORTHCOM requested relief in order to continue our FY11 in-
sourcing plan. DOD granted this request for FY12 and approved a level 
of civilians which included the original 90 FTE positions that were 
planned for in-sourcing in FY11.
    Ms. Bordallo. To what extent has NORTHCOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    General Jacoby. In FY10, NORAD and USNORTHCOM in-sourced 198 
positions. In FY12, USNORTHCOM in-sourced 90 positions. These actions 
reduced NORAD and USNORTHCOM's reliance on contractors, rebalanced our 
workforce, and generated efficiencies.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting NORTHCOM are the most cost-effective and risk-
averse source of labor?
    General Jacoby. Yes. We have a rigorous corporate process that 
includes a variety of mechanisms to ensure the right labor mix is used 
to perform our missions. Once a determination has been made that 
contracted services are appropriate, contracted services will be 
acquired via a competitive acquisition in accordance with the Federal 
Acquisition Regulation.
    Ms. Bordallo. What processes are in place within NORTHCOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    General Jacoby. The NORTHCOM organizational construct made a 
substantive shift from overhead support to mission-focused support. 
This organizational adjustment, in conjunction with the consolidation 
of like functions and the impact of reductions across all labor 
sources, has mitigated the need to establish processes that oversee 
potential workload transfers.
    Ms. Bordallo. In the NORTHCOM plan for the inventory of contracts 
for services in accordance with section 8108(c) of last year's 
appropriations act, signed by on October 3, 2011, and submitted to the 
congressional defense committees as part of the consolidated DOD plan, 
NORTHCOM planned to begin modifying statements of work beginning 
October 1, 2011. How many contract actions have been executed with the 
new requirements since October 1, 2011?
    General Jacoby. We have modified one solicitation to include the 
reporting requirement. In addition, on 14 Mar 12, we completed a 
comprehensive inventory of the 36 service contracts that were in place 
last year in order to determine which ones must be modified. Our 
initial analysis shows that nine of the 36 contracts will not be 
modified to include the reporting requirement as they expired at the 
end of 2011 and six will expire in 2012. The remaining 21 contracts 
will be addressed and the reporting requirements added to any new 
contracts awarded in FY12.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions NORTHCOM has had 
approved to date and the reason for those exceptions, as well as any 
exceptions that were requested but not approved, and the justification 
for such.
    General Jacoby. NORTHCOM has had the following ``exceptions'' to 
FY10 civilian levels approved. There were no disapproved NORTHCOM 
exception requests.

    <bullet>  Four civilian positions for NORAD Maritime Warning
        <all>  These positions fulfill the United States' 
        responsibilities outlined in the bi-national treaty with Canada
    <bullet>  Six positions for NORTHCOM Maritime Homeland Defense
        <all>  These positions execute NORTHCOM's Maritime Homeland 
        Defense mission by developing operational concepts, identifying 
        required capabilities, managing the maritime experimentation 
        program and sustaining the maritime exercise program
    <bullet>  Six civilian positions for NORAD and USNORTHCOM Global 
Force Management
        <all>  Three positions were established in each command to 
        implement their portion of the NORAD and NORTHCOM's Global 
        Force Management Process as outlined in the Global Force 
        Management Implementation Guidance signed by the Secretary of 
        Defense on 7 Jan 2010
    <bullet>  10 civilian positions for Joint Task Force Civil Support 
(JTF-CS)
        <all>  These positions perform a variety of functions within 
        JTF-CS to anticipate, plan, and integrate NORTHCOM chemical, 
        biological, radiological and nuclear response operations
    <bullet>  Nine civilian positions for Operation Clear Voice
        <all>  These positions execute OSD-funded operations for all 
        geographic combatant commands to conduct foreign focused 
        strategic communication activities to counter violent extremist 
        organizations, drug trafficking and trans-national criminal 
        network activities
    <bullet>  90 civilian positions for in-sourced contract work that 
was closely related to inherently governmental workload and more cost 
effective when performed by Government civilians
    Ms. Bordallo. As efficiencies are being executed across NORTHCOM, 
are the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    General Jacoby. The NORTHCOM organizational and management 
construct enables a complete understanding of priorities of functions 
and missions across our enterprise. Based on this understanding, our 
leadership can prioritize workload to accomplish the highest priority 
missions and functions on a daily basis. In addition, when the 
workforce is again adjusted, the Command has an understanding of the 
lowest priority work for reduction.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. FRANKS
    Mr. Franks. In recent years Iran has been rapidly perfecting its 
uranium enrichment and launch vehicle technologies. In February, Iran 
used an improved Safir-class launch vehicle to place a 50 kilogram 
satellite into an orbit about 200 miles above the earth. Its orbital 
path brings it over the continental U.S. on a recurring basis. Although 
that is a modest size and weight for an orbital payload, we know Iran 
is preparing to use a more powerful Simorgh-class launch vehicle to 
place a much heavier satellite into orbit. The Director of National 
Intelligence, James Clapper, told this committee that the Simorgh 
``could be used for an ICBM-class vehicle.'' One could see Iran 
perfecting these technologies and merging them to place a nuclear 
warhead or device into low earth orbit and detonating it over the 
United States to create an electromagnetic pulse that would take out or 
significantly degrade the civilian power grid, possibly for weeks, 
months, or possibly even years. There are some who discount the 
possibility because they believe it would be an irrational act by Iran. 
However, the decisionmaking processes behind the last two major attacks 
against the United States, Pearl Harbor and 9/11, were hardly rational 
either. Moreover, the sun is now entering a period of solar maximum 
when severe space weather could cripple the civilian power grid for an 
extended period of time. If either event were to happen--EMP whether 
manmade or natural--what would be its impact on the ability of NORTHCOM 
to carry out its mission? Is NORTHCOM prepared today to respond to the 
loss or significant degradation of the civilian power grid for weeks, 
months, or years? If it is not, how long would it take to become 
prepared and what resources would it need?
    General Jacoby. A large megaton EMP burst from a high altitude 
nuclear device would impact USNORTHCOM operations by disrupting our 
communications and electrical power supplies. Today, we are prepared to 
continue our warfighting missions in the wake of an EMP event. We are 
constantly working with our mission partners to refine plans to carry 
out systematic recovery of key infrastructures, improve protection and 
monitoring of the conditions of critical components, conduct research 
regarding EMP effects, and develop cost-effective solutions to manage 
such effects. To this end, USNORTHCOM continues a very aggressive 
funding line to ensure our systems have the appropriate EMP protection. 
The Secure Grid Table Top Exercise Series is an example of our 
commitment to work with various DOD organizations, the Department of 
Homeland Security and its subordinates, the Department of Energy, and 
private industry to better understand the effects of an EMP attack and 
solar weather, as well as prepare for such events.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. As you know, the USAF has decided to eliminate 133 
mobility aircraft and 123 fighter aircraft from its inventory, along 
with 11 RC-26s. How will this reduction in available aircraft affect 
NORTHCOM's missions in JTF-North and JTF-Civil Support? As the 
supported command, what input did you give to the Air Force regarding 
their decision to cut such a large number of aircraft?
    General Jacoby. While the Air National Guard provides reliable, 
capable, and responsive air support across all of our mission sets, 
USNORTHCOM leverages the entire inventory of air assets available to 
USTRANSCOM through our supported/supporting relationship. Given this 
robust pool of assets, combined with the extensive surface 
transportation infrastructure available within our Area of 
Responsibility, we do not foresee these force structure changes 
significantly impacting the USNORTHCOM mission, to include JTF-N or 
JTF-CS. We were fully aware of and tracked Air Force aircraft reduction 
decisions throughout the duration of the budget process. If there had 
been any impact to our missions, we would have provided input to the 
Air Force.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. Despite recent efforts, drug trafficking and other 
illicit trade has continued and violence has increased--as indicated by 
the alarmingly high homicide rates in Guatemala, Honduras, and El 
Salvador. While additional joint task forces to improve the military 
and police forces in these countries will help with targeting 
transnational criminal organizations, the current approach fails to 
address the root of the problem: military and police corruption. Given 
the situation, what measures are you taking to combat police and 
military corruption in the Central American countries experiencing 
increased violence?
    General Fraser. The significant levels of violence in Central 
America are related not only to corrupt officials, but to a myriad of 
challenges that include rampant poverty, unequal distribution of 
wealth, high unemployment rates, gang proliferation and undergoverned 
spaces. SOUTHCOM works primarily with the militaries of Honduras and El 
Salvador. Human rights concerns and U.S. legislation precludes direct 
training with some Guatemalan military units, although Special 
Operations Forces (GIER) can be trained. Most of the militaries in 
Central America enjoy much higher public confidence and lack the 
endemic corruption of the police forces. More and more, militaries are 
being directed by their governments to perform an internal security 
role. While this is not the preferred method of establishing internal 
public security, in the near term, it remains the only viable method 
for some countries to address the growing violence. All U.S. military 
training provided to Central American countries contains specific 
instruction focused on human rights and civilian control of the 
military, and only vetted units can be trained. SOUTHCOM will continue 
to focus on professionalizing Central American militaries in order to 
contribute to internal security.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. You have stated the way in which SOUTHCOM works with 
agencies and departments both in the U.S. and with other governments 
has been successful in monitoring transnational criminal organization 
usage of smuggling routes. Have you been able to improve these 
relationships to better address these smuggling routes? What can 
Congress do to make sure that you get the support you need to make sure 
these routes are not used by terrorist organizations? Have you been 
successful in impeding the money laundering system that these 
transnational criminal organizations have been using?
    General Fraser. USSOUTHCOM has been working with the interagency 
and their liaison officers (LNO's) working at HQ USSOUTHCOM to develop 
and refine our Common Intelligence Picture (CIP) of smuggling routes 
and other illicit activities. We leverage our partners in the 
intelligence community for resources and analysis, and we have 
increased information sharing throughout the intelligence community. We 
support the Department of Treasury through intelligence analysis to 
identify interconnected criminal and terrorist finance networks.
    We ask that Congress look at this problem set as the complex 
challenge it is. It requires the cooperation and capabilities of a 
broad range of Government agencies, not just the Department of Defense. 
Agencies like the Department of State, Drug Enforcement Agency, and the 
Intelligence Community play major roles, and we ask that Congress 
continue to support them, especially the security cooperation 
activities funded by the State Department.
    Mr. Schilling. You have stated that partnering with countries in 
the area and early investing best serve the regional stability. Can you 
expand on the long-term dividends, including the money and manpower 
these programs provide to the U.S.?
    General Fraser. United States Southern Command (SOUTHCOM) security 
assistance activities encompass a wide array of programs that support 
the achievement of our theater strategic end states which include 
combating illicit trafficking, countering violent extremism, assisting 
partner nations in controlling their sovereign territories, building 
the capacity of partner nations to support humanitarian assistance/
disaster relief and peace keeping operations, and ensuring the 
unimpeded flow of legal commerce. Quantitative assessments to determine 
the long-term dividends, including the money and manpower these 
programs provide the U.S., is not a data set that the SOUTHCOM staff 
maintains, nor is the staff resourced to undertake such a study; 
however, conclusions can be drawn from anecdotal evidence that provides 
indications of the benefits and the effectiveness of the SOUTHCOM 
investments in the Caribbean Basin and Central and South America. 
SOUTHCOM security cooperation programs are executed to prepare our 
partner nations to shoulder more of the burden of regional security. 
The following are tangible successes of SOUTHCOM security cooperation 
activities over recent years:

    Counter Illicit Trafficking--Colombian military Joint Task Forces 
supported with DOD funded communications network, intelligence data 
management systems, rotary wing aircraft, and training continue to 
eliminate drug trafficking organizations as part of their ongoing 
efforts to defeat the FARC, a terrorist organization operating in our 
hemisphere. Maritime interdiction capabilities fielded in Central 
America (boats, communications, and training) since 2009 have 
substantially complemented U.S. illicit trafficking detection and 
monitoring operation. Panama has seized more drugs in the past three 
years than the ten prior years combined. Nicaragua's Navy has become a 
major deterrence to illicit maritime trafficking due to their fierce 
reputation of pursuing 24/7. In June 2012, a week after receiving new 
boats, the Costa Rican Coast Guard interdicted a go-fast carrying 1.1 
tons of cocaine.

    Deter and Disrupt Violent Extremist Organizations (VEOs) and Defeat 
VEO--After many years of U.S. assistance, Colombia has developed robust 
train the trainer programs and provides counter-terrorist training to 
countries across the globe.

    Humanitarian Assistance/Disaster Response--SOUTHCOM has witnessed a 
decrease in requests for USSOUTHCOM support of disaster response 
operations in Central America as the capabilities of our Partner 
Nations increases. From 2007-2009, our Central American Partner 
Nations' capacity to respond to flooding events within their borders 
was frequently overwhelmed, resulting in several requests for DOD 
support in the form of logistics (rotary airlift support), medical, and 
engineering. From 2007 to 2009, USSOUTHCOM expended $4.6M conducting 
disaster response operations in Nicaragua, Panama, and Costa Rica. In 
2010 and 2011, USSOUTHCOM expended $2.1M in disaster response 
operations in El Salvador and Guatemala.

    Global Peace Operations--SOUTHCOM's Global Peace Operations 
Initiative (GPOI) Program builds peacekeeping capacity in 11 select 
Partner Nations allowing them to initiate participation in United 
Nations Peace Support Operations (PSOs), increase troop contributions 
to existing missions, or enhance the capability provided to a specific 
PSO mission. Development of national PK capability results in 
tangential benefits such as: (1) access to militaries that are more 
challenging to deal with through traditional Security Assistance and 
mil-to-mil initiatives, (2) significant skill set overlap between PK 
and other military mission sets such as HA/DR, and (3) 
professionalization of the Armed Forces to include respect for human 
rights, protection of civilians (noncombatants), and civilian control 
of the military.
    Mr. Schilling. You mention the fact that Iran is becoming 
increasingly involved in South and Central America. Have Iran sanctions 
helped slow their progress in these areas?
    General Fraser. Sanctions on Iran may have helped slow Tehran's 
progress in developing relations in the region. In large measure, South 
and Central American governments hesitate to further develop ties with 
Iran due to concern over punishment for breaking the sanctions. 
Sanctions restrain Iran from complying with its side of most economic 
deals, souring many governments from pursuing growing economic ties. 
For example, in early February 2012, Venezuelan President Chavez said 
sanctions impede joint ventures with Iran.
    Mr. Schilling. Can you speak to the positive outcomes of 
maintaining our presence and capabilities at U.S. Naval Station 
Guantanamo Bay, Cuba?
    General Fraser. Absent a detention facility and even following the 
eventual demise of the Castro regime, the strategic capability provided 
by U.S. Naval Station Guantanamo Bay (NAVSTA GTMO) remains essential 
for executing national priorities throughout the Caribbean, Latin 
America and South America which also fall under the U.S. Southern 
Command (SOUTHCOM) Area of Responsibility (AOR).
    <bullet>  NAVSTA GTMO is a strategic U.S. base for the Caribbean 
and the entire SOUTHCOM AOR. It provides a forward location that 
enhances regional stability and essential logistics and potential 
forward operating base for SOUTHCOM, Joint Interagency Task Force 
South, Department of Homeland Security, U.S. Coast Guard, and Drug 
Enforcement Agency operations.
    <bullet>  NAVSTA GTMO's organic logistics capabilities enable U.S. 
forces to maintain better operational security and tactical advantage 
when operating in this region. The Panama Canal expansion will increase 
the amount of shipping transiting the Caribbean enroute to ports in the 
U.S. and Europe. NAVSTA GTMO will help the U.S. maintain the security 
of these maritime routes. NAVSTA GTMO is essential for possible migrant 
interdiction operations. Because of its location, the provisions of the 
U.S. Immigration and Naturalization Act do not apply to persons 
detained at this base. This provides the U.S. Government with a 
neutral, humane, and safe location for processing migrants and other 
detainees awaiting their final disposition. The Migrant Operations 
Center (MOC) and Non-Domestic Migrant Processing Center at NAVSTA GTMO 
are indispensible resources for any future mass migration events.

    Mr. Schilling. You talk about the civil support and homeland 
defense cooperation work that you do throughout the country, but I did 
not see specific information about the Civil Air Patrol. How do you see 
the inclusion of the Civil Air Patrol in your missions at NORTHCOM 
especially with the great capabilities they have during natural 
disasters?
    General Jacoby. The Civil Air Patrol (CAP), in its status as the 
Air Force Auxiliary, directly supports my missions in the NORTHCOM Area 
of Responsibility, and I consciously integrate them early and often in 
all phases of planning and response to contingencies. My air component, 
Air Forces Northern, has specific approval authorities, as delegated 
from Secretary of the Air Force, to employ CAP in the CONUS, which has 
been completely responsive to my needs. A portion of the situational 
awareness that I receive comes from the CAP in the form of disaster 
imagery. This helps me plan what next steps to take with any arriving 
Title 10 DOD forces, or to help scale the response appropriately. In 
addition, the CAP continues to provide support to search and rescue 
organizations throughout our country and I would certainly leverage 
this expertise in any large scale disaster.
    Mr. Schilling. Because of your homeland security missions you point 
out your partnership with the National Guard. How is this continued 
partnership for the Aerospace Control Alert possible with the 
reductions of aircrafts that the Air Force has proposed?
    General Jacoby. Our partnership with the National Guard is 
paramount to homeland defense. The Air Force has provided me, through 
the Air National Guard, sufficient assets to conduct our Aerospace 
Control Alert mission. Despite the proposed cuts, I have the authority 
to quickly increase NORAD's force posture to counter any threat that 
may emerge. This is only possible in light of the complete confidence 
we have in our National Guard partners.
    Mr. Schilling. In your testimony you touch on aerospace threats and 
specifically point to the fact that a terrorist threat still looms and 
proliferation of advanced asymmetric capabilities is growing. Are there 
specific ways or programs that Congress needs to examine to make sure 
our airspace is not used to harm us again like we experienced on 9/11?
    General Jacoby. NORAD and USNORTHCOM continue to work many programs 
and capabilities to deter, detect, and if necessary, defeat current and 
emerging aerospace threats to the homeland. One of our biggest concerns 
is our ability to detect and track potential threats at low altitude 
with very small radar cross-sections, and much of our focus is centered 
on these types of threats. To address these considerations, we continue 
to collaborate with industry, Service and national laboratories, and 
academia to evaluate a wide spectrum of surveillance and both lethal 
and nonlethal engagement options. We will look to the Department and 
Congress at the appropriate time in our analysis to seek suitable 
levels of support through the President's Budget.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. How would you assess the performance of the E-8C JSTARS 
to date in SOUTHCOM's AOR? Do your requirements for these platforms 
outpace the number of planes available?
    General Fraser. The performance of the E-8C JSTARS is outstanding 
and provides an unmatched and available capability that supports Joint 
Interagency Task Force South's (JIATF South) detection and monitoring 
(D&M) wide area surveillance requirements to counter the illicit 
trafficking in the SOUTHCOM Area of Responsibility (AOR). No other 
asset currently can provide similar extended duration and as expansive 
radar coverage. The E-8C JSTARS is uniquely equipped to provide wide 
area surveillance (changing search time from hours to minutes) against 
the flow of illicit maritime trafficking which comprises 89% of the 
total flow of drugs into Mexico and the U.S. The E-8C JSTARS is a key 
enabler that ensures effective and efficient utilization of JIATF 
South's other limited allocation of air and maritime assets. 
Understanding the global requirements on this low density airframe, 
JIATF South and Air Combat Command support employing the E-8C JSTARS 
using CONUS-based E-8C JSTARS aircraft that are designated for flying 
training sorties two times a month on a not to interfere basis, and 
provide 4-5 hours of station time on each flight. This mutually 
beneficial relationship provides wide area maritime surveillance MTI 
(Moving Target Indicator) capability for the AOR and needed training 
opportunity for the JSTARS crewmembers to hone their skill sets. During 
a recent two week deployment based out of Curacao, the E-8C JSTARS 
provided millions of square miles of maritime D&M support and led to 
the disruption of $3.6 million dollars of cocaine. Deploying the E-8C 
JSTARS in the SOUTHCOM AOR supports DOD's ability to fulfill its 
statutory D&M mission and to achieve the Office of National Drug 
Control Policy stated cocaine removal goal for the transit zone.
    It is our understanding that there are 17 JSTARS aircraft in the 
inventory, and a number of those are in depot-level maintenance or 
deployed to other combatant commands, which is why we make use of 
training sorties in the SOUTHCOM AOR. The E-8C Joint STARS is the only 
wide area maritime surveillance with MTI capability integrated in the 
SOUTHCOM AOR and is considered a game-changing capability.
    Mr. Scott. What is the role of the U.S. Coast Guard within SOUTHCOM 
in building partnerships?
    General Fraser. The U.S. Coast Guard provides forces to USSOUTHCOM 
through its Districts Seven and Eleven to support to counter 
transnational organized crime (air and surface) operations. The Coast 
Guard also maintains bi-lateral agreements with most of the 33 
countries in SOUTHCOM's area of responsibility in support of the 
counternarcotics mission and the mission to counter transnational 
organized crime. They also work with Partner Nations as they conduct 
bi-annual port safety security visits and host Partner Nations for 
specialized training in the U.S. Coast Guard personnel are embedded in 
the SOUTHCOM Headquarters staff, as well as in the Security Cooperation 
Organizations in Barbados, Trinidad and Tobago, Haiti, and Costa Rica, 
actively participating in SOUTHCOM activities, operations, and 
exercises.
    Mr. Scott. What is the role of military bands within SOUTHCOM and 
are they a cost-effective way of bringing people together and fostering 
greater understanding?
    General Fraser. The military services oversee U.S. military bands 
and establish the criteria for their support of official military 
functions and community relations programs. They support official 
ceremonies and functions sponsored and conducted by federal, state, 
county and municipal governments. Within USSOUTHCOM's area of 
responsibility, U.S. military bands help enhance the image of the U.S. 
and the U.S. military during humanitarian missions like to SOUTHCOM-
sponsored Continuing Promise. Along with providing significant medical 
care to disadvantaged people living in austere parts of the region, the 
bands bring people together and foster greater understanding of the 
U.S. and our intent. The military bands complement other activities 
that support those objectives.
    Mr. Scott. The hospital ships Comfort and Mercy are high-demand, 
low-density platforms. If the United States had a larger fleet of 
hospital ships, what roles and missions could they perform within 
SOUTHCOM's AOR?
    General Fraser. USNS COMFORT deployments provide medical, dental 
and veterinary care, and conduct Humanitarian Civic Action engineering 
projects in austere locations in support of CONTINUING PROMISE mission 
objectives:

        <bullet>  Train U.S. personnel and build local capacity in 
        cooperation with Partner Nation, Inter-Agency, Non-Governmental 
        and Private Volunteer Organizations, to conduct Civil-Military 
        Operations, including Foreign Humanitarian Assistance and 
        Disaster Relief.
        <bullet>  Send a strong message of U.S. commitment and 
        partnership with the people of the Caribbean and Latin America.
        <bullet>  Improve their preparedness to provide initial Foreign 
        Humanitarian Assistance/Disaster Relief (FHA/DR) support in 
        response to a crisis in the SOUTHCOM AOR. Over the past five 
        years, CONTINUING PROMISE has conducted more than 50 visits to 
        15 countries in the region, providing treatment to over 500,000 
        patients and training more than 100,000 FHA/DR responders.
    Mr. Scott. Are U.S. flag and general officers banned from visiting 
any countries within SOUTHCOM's AOR? If so, which countries?
    General Fraser. U.S. flag and general officers are not banned by 
law from visiting any countries in the SOUTHCOM AOR. However, there are 
policy guidelines that establish the requirement for U.S. flag and 
general officers to obtain higher level approval prior to travelling to 
some countries within SOUTHCOM's AOR. For Example, as a matter of 
policy, the State Department generally opposes travel to Cuba (not 
Guantanamo Bay) by U.S. Government officials who are at/above the rank 
of office director, GS-15, or O-6.
    Mr. Scott. What is Hezbollah's center of gravity in Latin America?
    General Fraser. Lebanese Hezbollah's center of gravity in Latin 
America and the Caribbean is the clan-based, financial networks 
generating tens of millions of dollars, primarily using the Free Trade 
Zones (FTZs) in the region.
    Lebanese Hezbollah support networks involved in licit and illicit 
activities take advantage of relaxed oversight and the lack of 
transparency in FTZs to launder the proceeds of crime both for personal 
and Hezbollah organizational profit. Familial ties strengthen networks 
integrating businessmen, shop attendants, couriers, local financial 
specialists, and leaders worldwide.
    Mr. Scott. What were the accomplishments of the U.S. Coast Guard in 
2011?
    General Fraser. The U.S. Coast Guard provided NORAD and USNORTHCOM 
with excellent support in 2011. The ``Blackjack'' H-65 support in the 
National Capital Region (NCR) and selected residential visits outside 
the NCR was absolutely top notch as part of our integrated homeland 
defense efforts. Furthermore, the U.S. Coast Guard provided security 
and force protection for vessels engaged in the Military Outload 
mission, ensuring critical logistics support for our troops overseas. 
The U.S. Coast Guard also supported our top-tier exercises, VIGILANT 
SHIELD and ARDENT SENTRY, incorporating their unique authorities, key 
insights and experience as we exercised our homeland defense and civil 
support plans. In addition, we collaborated with the U.S. Coast Guard 
to develop a joint assessment of needed Arctic capabilities through the 
DOD/Department of Homeland Security Capabilities Assessment Working 
Group. Finally, the U.S. Coast Guard lent its extensive expertise to 
our Theater Security Cooperation efforts through a series of Mobile 
Training Team events with our international partners in Canada, Mexico 
and The Bahamas.
    Mr. Scott. Has SOUTHCOM ever considered creating a Coast Guard 
subordinate command? If not, why not?
    General Fraser. Service Component Commands are established by the 
assignment of forces to a Combatant Commander in the ``Forces for 
Unified Commands'' memorandum signed by the Secretary of Defense 
(SecDef). The force assignment process is governed by 10 U.S.C. 
Sec. 162 which is a directive for the military departments. Although 
the Coast Guard is an Armed Service under 10 U.S.C. Sec. 101, the 
Department of Homeland Security is not a military department, and the 
SecDef cannot assign Coast Guard forces under 10 U.S.C. Sec. 162 while 
the Coast Guard is operating as an Armed Service under DHS.
    The Coast Guard allocates forces to SOUTHCOM and other combatant 
commanders for specific mission requirements through the Global Force 
Management (GFM) force allocation process. The GFM allocation process 
provides appropriate mechanisms for mission validation and 
prioritization to ensure that the Coast Guard is able to balance their 
Title 14 and Title 10 mission responsibilities. Assignment of Coast 
Guard forces under a Service Component Command could preclude their 
availability for Title 14 missions.

    Mr. Scott. According to a February 24, 2011, webmemo by Dr. James 
Carafano and James Dean of The Heritage Foundation, ``America's 
capacity to exercise its sovereignty, protect its interests, and 
participate in global scientific research and commerce, however, is 
collapsing.'' Do you agree or disagree with this assessment?
    General Jacoby. I disagree. USNORTHCOM supports policy direction of 
the President in the peaceful development of resources and scientific 
research in the Arctic. To this end, on 13 March 2012, U.S. Coast Guard 
Commandant ADM Papp and I signed the Arctic Capabilities Assessment 
Group White Paper, which identifies near-, mid- and far-term shared 
capability gaps and provides near-term investment recommendations for 
the Arctic. Key enabling capabilities in the Arctic will center on 
improved communications, domain awareness, smart infrastructure 
investments, and leveraging training/exercising opportunities.
    Mr. Scott. The U.S. had eight polar ice-breakers in 1970. Today, 
the U.S. Coast Guard has three. Does the United States have the most 
advanced and robust ice-breaker fleet in the world today? What is the 
minimum number of ice-breakers required to maintain a U.S. presence in 
the Arctic?
    General Jacoby. According to the U.S. Coast Guard, two polar ice-
breakers are needed to meet minimum near-term requirements. In 
addition, the U.S. Coast Guard's High Latitude Study identified a long-
term requirement of three heavy and three medium ice-breakers to 
fulfill all statutory missions.
    Mr. Scott. What were the accomplishments of the U.S. Coast Guard in 
2011?
    General Jacoby. The U.S. Coast Guard provided NORAD and USNORTHCOM 
with excellent support in 2011. The ``Blackjack'' H-65 support in the 
National Capital Region (NCR) and selected residential visits outside 
the NCR was absolutely top notch as part of our integrated homeland 
defense efforts. Furthermore, the U.S. Coast Guard provided security 
and force protection for vessels engaged in the Military Outload 
mission, ensuring critical logistics support for our troops overseas. 
The U.S. Coast Guard also supported our top-tier exercises, VIGILANT 
SHIELD and ARDENT SENTRY, incorporating their unique authorities, key 
insights and experience as we exercised our homeland defense and civil 
support plans. In addition, we collaborated with the U.S. Coast Guard 
to develop a joint assessment of needed Arctic capabilities through the 
DOD/Department of Homeland Security Capabilities Assessment Working 
Group. Finally, the U.S. Coast Guard lent its extensive expertise to 
our Theater Security Cooperation efforts through a series of Mobile 
Training Team events with our international partners in Canada, Mexico 
and The Bahamas.
    Mr. Scott. What impact did the Coast Guard's antiquated fleet of 
cutters and aircraft have on its ability to operate within your 
respective AORs?
    General Jacoby. There are several impacts in my AOR. The Coast 
Guard's aging surface fleet, in particular major cutters, continues to 
be challenged by unplanned maintenance resulting in a loss of 
operational days at sea. The average age of the Medium Endurance Cutter 
fleet is approaching 40 years and they are scheduled to be replaced by 
Offshore Patrol Cutters. For example, within the Coast Guard's Atlantic 
Area, the major cutter fleet (medium endurance cutters and high 
endurance cutters) was underway for only 3,135 of the 3,669 days 
originally planned for all missions in FY2011. Furthermore, USCG 
Atlantic Area major cutters met 1,175 of the 1,446 days originally 
planned in support of JIATF-South, a loss of 271 planned major cutter 
days for the Drug Interdiction mission carried out collaboratively by 
USSOUTHCOM and USNORTHCOM via JIATF-South's law enforcement efforts. In 
addition, the availability of C-130H aircraft continues to decline and 
depot-level maintenance time and costs continue to grow, which reduces 
operational hours for aircraft in my AOR.
    Mr. Scott. Has NORTHCOM ever considered creating a Coast Guard 
subordinate command? If not, why not?
    General Jacoby. Yes, in 2007, USNORTHCOM conducted an 
organizational mission analysis that considered a U.S. Coast Guard 
subordinate command in regard to command and control in Alaska. 
Ultimately, the current Memoranda of Agreement between DOD and DHS were 
deemed sufficient to allow mutual support for homeland defense and 
homeland security events, as they facilitate the rapid transfer of 
forces between the Navy and the U.S. Coast Guard. Additionally, the 
relationship between operational levels of the U.S. Coast Guard and 
USNORTHCOM has grown much closer. For example, the Coast Guard Area 
Commander now briefs me during biweekly Component Commander's Cross 
Talk, and I have recently selected a Coastguardsman to serve as my 
Staff Judge Advocate.
    Mr. Scott. What homeland security missions could be performed by E-
8C JSTARS aircraft?
    General Jacoby. JSTARS can enhance law enforcement agencies' 
ability to counter transnational criminal organization (TCO) activities 
through the use of JSTARS Moving Target Indicator and Synthetic 
Aperture Radar detection and monitoring systems. JSTARS can communicate 
with Department of Homeland Security (DHS) interdiction platforms to 
support ground agents in the detection of illicit TCO activity. JSTARS 
can also provide analysis of terrain and traffic patterns; geo-locate 
TCO staging areas close to the border; confirm/deny TCO maritime 
movement routes; link to other DOD operational and intelligence assets; 
complement DHS Intelligence, Surveillance and Reconnaissance 
capabilities; conduct search and rescue; and nest with other agencies' 
sensors in securing and defending of the homeland. Currently, JSTARS 
provides support through Joint Task Force North to DHS counterdrug 
missions primarily along the southern border and associated maritime 
domain approaches.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
